<html>
<title> - ASSESSING THE VA IT LANDSCAPE: PROGRESS AND CHALLENGES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
         ASSESSING THE VA IT LANDSCAPE: PROGRESS AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, FEBRUARY 7, 2017

                               __________

                            Serial No. 115-1

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-367                 WASHINGTON : 2018      
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                              ----------                              

                       Tuesday, February 7, 2017

                                                                   Page

Assessing The VA IT Landscape: Progress And Challenges...........     1

                           OPENING STATEMENTS

Honorable David P. Roe, Chairman.................................     1
Honorable Timothy J. Walz, Ranking Member........................     2

                               WITNESSES

Mr. Rob C. Thomas, II, Acting Assistant Secretary for Information 
  and Technology and Chief Information Officer, Office of 
  Information and Technology, U.S. Department of Veterans Affairs     4
    Prepared Statement...........................................    34

        Accompanied by:

    Jennifer S. Lee, M.D., Deputy Under Secretary for Health for 
        Policy and Services, Veterans Health Administration

    Mr. Bradley Houston, Director, Office of Business 
        Integration, Veterans Benefits Administration
Mr. David A. Powner, Director, IT Management Issues, U.S. 
  Government Accountability Office...............................     6
    Prepared Statement...........................................    39

                       STATEMENTS FOR THE RECORD

Blinded Veterans Association.....................................    51
Disabled American Veterans.......................................    53
The American Legion..............................................    57
Veterans of Foreign Wars.........................................    59


         ASSESSING THE VA IT LANDSCAPE: PROGRESS AND CHALLENGES

                              ----------                              


                       Tuesday, February 7, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. David P. Roe 
[Chairman of the Committee] presiding.
    Present: Representatives Roe, Coffman, Wenstrup, Radewagen, 
Bost, Poliquin, Dunn, Arrington, Higgins, Bergman, Gonzalez-
Colon, Walz, Takano, Brownley, and Kuster.

          OPENING STATEMENT OF DAVID P. ROE, CHAIRMAN

    The Chairman. Good morning. The hearing will come to order. 
I want to welcome everyone to today's hearing, and I know we 
have a lot of Members in different hearings. There are a lot of 
meetings going on this morning.
    We will begin the 115th Congress by examining IT because it 
is so important to everything VA does and everything we all 
hope to accomplish as part of the department's transformation. 
From delivering timely care to veterans, to ensuring that 
medical records follow the patient, to making benefit decisions 
accurately, modern IT systems are essential.
    This year and next are pivotal because the department has 
major decisions to make about how to modernize its systems. VA 
is also beginning several projects they have attempted with 
poor results in the past and now is the last chance to get them 
right.
    Let us start with VistA, the electronic health records 
system that performs so many other administrative functions. 
The Choice Act independent assessment in 2015 was an invaluable 
study of VistA. It explained the weaknesses and complexities 
that have accumulated in the system over the last 20 years and 
recommended that VA send Congress a comprehensive cost benefit 
analysis of keeping VistA or changing course. Then in 2016 the 
Commission on Care recommended VA retire VistA in favor of a 
commercial off the shelf software. However, the VistA Evolution 
program was already well underway when these recommendations 
were issued. VistA Evolution attempts to catch the system up 
and put it on a stable course for the future. It is the third 
major attempt to modernize VistA in the past decade. Retaining 
or replacing VistA is a make or break decision for VA. It must 
be made deliberately and objectively. While the department 
provided some cost benefit analysis before and after the 
independent assessment, it was never as thorough as intended. 
Senior officials have testified to this Committee and said 
elsewhere that they accept the Commission on Care 
recommendation. But what does that mean in practice? And that 
has become less and less clear. VistA Evolution is now in its 
fourth of five years, and I understand the desire to finish it. 
VA must judge it realistically against concrete goals and if it 
falls short moving the goal posts is unacceptable.
    Another key system is the electronic health management 
platform, or eHMP, which is also part of VistA Evolution and 
due next year. This is supposed to settle the medical record 
interoperability issue with DoD once and for all. After 
changing course so many times over the years and then putting 
an interim solution in place, VA has a great deal riding on 
eHMP. I look forward to hearing about the plan to finish it. 
VHA also still badly needs a modern scheduling system and both 
sides of the aisle are united to make sure it finally gets done 
this year. The Faster Care for Veterans Act puts commercial 
self-scheduling software in competition with VA's VistA self-
scheduling project and sets high standards for both of them. If 
either one of them cannot meet the standards it must be 
eliminated. VA announced in the media that the VistA project 
called VAR, V-A-R, would be rolled out in January. Since that 
did not occur the Committee would like to know what happened.
    Rounding out the list, last year this Committee highlighted 
upgrades to the system used to process community provider 
claims that had not been implemented. There has been some 
progress but the situation is far from perfect. Similarly, the 
Veterans Benefits Management System has advanced at great cost 
but still cannot handle appeals or all types of claims.
    Further, after two previous attempts VA is again trying to 
replace its antiquated financial systems. This time the plan is 
to adopt an existing system used by the Agriculture Department 
rather than build it. This is very encouraging but it is a 
complicated, delicate project.
    Congress recognizes the depth of technology needed by VA. 
To that end we have increased the IT appropriations more than 
seven percent on average throughout the last five years. All of 
these programs and others we will address today must use tax 
dollars responsibly. That is why the Inspector General report 
released last week on the failed cloud service broker contract 
is so troubling.
    Unnecessary data centers are a big problem that devour VA's 
budget. These contracts were an effort to push the department 
into the cloud and make headway in consolidating the data 
centers. But the $5.3 million was wasted and nothing useful 
produced. That $5.3 million could pay for so many other things, 
for instance 70 entry level nurses in Johnson City, Tennessee. 
Every account in the budget affects every other account and we 
have to start thinking that way.
    I will now yield to my friend, Ranking Member Walz, for his 
opening remarks.

      OPENING STATEMENT OF TIMOTHY J. WALZ, RANKING MEMBER

    Mr. Walz. Thank you, Chairman Roe, and I want to thank all 
of you for being here today, and I appreciate the collaboration 
of the Chairman of understanding we are coming out of the block 
in this Congress. This is our first hearing in here and there 
is a reason for that. IT is the fundamental piece that ties all 
of the aspects of VA together.
    Mr. Thomas, I appreciate you being here. I couldn't resist 
the maybe overused cliche' that Groundhog Day was last week. 
You are the fourth person since I have been here to sit there 
telling us when we are going to update the records. I know it's 
with a commitment and a vision and a belief that is going to 
happen, but I think as many of us talked technology it has not. 
I get that about information technology. Thinking back to 
myself, was it a bad buy when I bought that Macintosh II that 
was soon replaced by the next one, the GS? Which was soon 
replaced by the new iMac, which was soon replaced by this? It 
happens. Technology moves quickly. Investments that are made, 
especially enterprise-wide investments, that is why I think 
that long range vision needs to be in place. VA has a history 
of doing this right at times, with VistA and electronic medical 
record. I often say I represent the Mayo Clinic and they have 
talked about that. But I have used that since I have been there 
for now over ten years. The technology has moved beyond that. 
VistA is no longer the state of the art. VistA is no longer 
maybe in some cases able to do all the things that we need it 
to do.
    So I think for all of us, our VSOs, certainly the GAO 
report, you heard the Chairman on this, there is a real desire 
to get this right. I challenge my colleagues sitting up here 
is, we need to lay the challenge and say in this Congress we 
are going to get there. So just the things that we are going to 
focus on today, on the Commission of Care and our VSOs have 
called for the purchase of a commercial electronic health 
record. I want to explore that some, of where we are going. I 
think, we thought the VA was moving in that direction last 
summer. It does not appear like that now. That troubles me in 
terms of long range vision. Also sitting over on the HAS 
Committee last year of watching DoD in their purchase of an 
electronic medical record, I know it is more complex and I do 
not want to oversimplify. I think the question I am going to 
ask and I am sure some of my colleagues are going to ask is, 
why do we not have the same one? Why are we not sharing on 
that? And why are we not thinking about what is necessary in 
the future to make that happen?
    VA remains on that high risk list because of it. We do have 
to modernize the infrastructure. Dr. Roe is right. We need to 
be strong stewards of the taxpayer dollars. We understand it 
costs money. I would add also that we have got a lot of 
qualified people out there, veterans themselves, that can add 
to our capacity in the IT field. I also recognize, though, you 
are not exempt from the hiring freeze. So even if we get you 
the money to upgrade your infrastructure we cannot necessary 
put the people in there to do that. That is going to be 
addressed kind of holistically as we do that.
    The next point, and I would just say as I hope to hear 
today from this is, I have often said we cannot talk VA health 
care, even VA in general, in a vacuum outside of the general 
public. If we are going to talk about choice programs and 
community-based care and fee for service, the inability to 
communicate amongst the VA and those private sector entities 
that in many cases are not as far along as VA is, how are we 
going to think strategically of what this infrastructure looks 
like to allow safe, secure, and smart transfer of data between 
the VA and those private sector hospitals? How are we going to 
work with them to make sure that interoperability is there, not 
just between DoD and VA, but between DoD, VA, and the private 
sector where our veterans are receiving care especially in 
rural areas.
    I am interested to hear on this. I know it is a challenging 
job, Mr. Thomas. I appreciate you being there and with your 
team. But as I said, again, I think from my perspective on this 
is we are going to have to lay down the line in this Congress 
that are we going to get to that enterprise wide infrastructure 
that gets us moving where our folks, because you will hear the 
testimony from the VSOs, our veterans are getting to the point 
where they are frustrated. And it starts, whether it is 
scheduling, whether it is transfer of the electronic medical 
record, whether it is benefits payments, whether it is 
smoothing out how we do G.I. Bill, all those things fall under 
the umbrella of IT. So I look forward to the testimony and I 
thank the Chairman for the hearing. I yield back.
    The Chairman. I thank the gentleman for yielding. I ask 
that all Members waive their opening remarks as per this 
Committee's custom. And with that, I invite our first and only 
panel who are at the witness table.
    On the panel we have Mr. Rob Thomas, Acting Assistant 
Secretary for Information and Technology and the Chief 
Information Officer for the Department of Veterans Affairs. 
Welcome, Mr. Thomas. He is accompanied by Dr. Jennifer Lee, 
Deputy Under Secretary for Health Policy and Services 
representing VHA; and Mr. Brad Houston, Director of the VBA 
Office of Business Integration. We also have Mr. David Powner, 
the Director of IT Management Issues for GAO. I now ask the 
witnesses to stand and raise your right hand.
    [Witnesses sworn.]
    The Chairman. Please be seated and let the record reflect 
that all witnesses have answered in the affirmative. Mr. 
Thomas, you are now recognized for five minutes.

                   STATEMENT OF ROB C. THOMAS

    Mr. Thomas. Chairman Roe, Ranking Member Walz, Members of 
the Committee, thank you for inviting me to speak with you 
about our major information technology modernization projects 
at the VA. I am accompanied by Dr. Jennifer Lee, the Deputy 
Under Secretary for Health for Policy and Services for the 
Veterans Health Administration; and Brad Houston, the Director 
of the Veterans Benefit Administration Office of Business 
Process Integration.
    As the Acting Assistant Secretary and CIO for VA, I oversee 
the development and sustainment of every IT system that 
supports the Department of Veterans Affairs. I have the 
distinct privilege of working side by side with colleagues like 
Dr. Lee and Mr. Houston to ensure that the care, services, and 
benefits we deliver our Nation's veterans are backed by the 
best technology. Now I could share with you the number of 
systems and the number of bits and bytes we process each day. 
But the most important statistic I can share with you is that 
59 percent of our 8,000 person IT workforce are veterans.
    I am proud to be a part of that 59 percent. As a grandson 
of World War II veterans, son of a veteran, nephew to four 
veterans, and a veteran myself, my responsibility to serve is 
an honor and a blessing. In 2015 I was living in St. 
Petersburg, Florida. I had just accepted a VA position there. I 
had no plans to come back to Washington, D.C. As a native of a 
small town of 225 people in Western Montana, D.C. is a long way 
from home. I had already retired from the Air National Guard, 
served as the Chief Information Officer for a Federal agency, 
and served as the Deputy CIO for the Department of the Air 
Force. The job in St. Petersburg came with sunshine and a 
simple focus: improve the veteran experience. Shortly 
thereafter I received a call from our former VA CIO. She asked 
me to come back to D.C. to redefine our approach and to ensure 
that everything we delivered in IT had a clear path and clear 
value.
    Since that time we embarked on a complete transformation of 
the organization and we continue to execute against our 
enterprise strategy. We focused on programs and projects that 
deliver value and outcomes to our veterans by slashing numerous 
processes' steps and artifacts to streamline our services. In 
September of 2016 our new Enterprise Program Management Office 
was established. We transitioned over 200 projects from the old 
system to a new agile process. This transition delivered an on 
time delivery rate with an estimated 85 percent cost avoidance 
since 2015. The enterprise cyber strategy reduced elevated 
privileges by 95 percent, remediated 23 million critical and 
high vulnerabilities, and removed 95 percent of prohibited 
software.
    We are exchanging more health information with DoD than at 
any time in the department's history. Our VBA claims are no 
longer paper. The Veterans Benefit Management System, or VBMS, 
has helped drastically reduce the disability claims inventory. 
Our Federal Information Technology Acquisition Reform Act, or 
FITARA score, moved from a C to a B plus in less than a year. 
VA was one of only three government agencies to receive this 
rating and is the largest and most complex to do so. We went 
from 19th to fifth in the OMB customer service survey, the only 
Federal organization to advance. We have proved out the concept 
of a cloud based digital health platform that includes holistic 
improvements to health care operations, reduced wait times, and 
improving the veteran's experience.
    Our Nation's veterans have a force of thousands of IT 
experts looking out for their needs. It is a team working 
tirelessly day in and day out to modernize the full veteran 
technology landscape. It is a team focused on action and 
discipline to ensure a shift from homegrown separate entities 
to a fully integrated modernized environment capable of 
operating as a cutting edge enterprise. It is a team intent on 
becoming a world class organization that provides a seamless 
unified veteran experience through the delivery of state of the 
art technology. They are well on their way to doing so and I am 
honored to lead them.
    Mr. Chairman, I am happy to answer any questions. Thank 
you.

    [The prepared statement of Rob C. Thomas Beth McCoy appears 
in the Appendix]

    The Chairman. Thank you very much, Mr. Thomas, for your 
testimony. And now, Mr. Powner, you are recognized for five 
minutes.

                  STATEMENT OF DAVID A. POWNER

    Mr. Powner. Chairman Roe, Ranking Member Walz, and Members 
of the Committee, thank you for inviting GAO to testify on VA's 
IT acquisitions and operations. Technology can help make major 
improvements so that ultimately our veterans will face shorter 
wait times to schedule needed care, receive higher quality 
care, and have their claims processed quicker and more 
accurately.
    VA spends billions on IT annually and does not have a great 
track record for delivering new capabilities. The department 
will spend nearly $4.5 billion on IT this year. That makes them 
the fourth highest IT spender in the government, behind DoD, 
HHS, and DHS. Of the $4.5 billion, only about $500 million goes 
towards developing or acquiring new systems. The remaining goes 
primarily towards operational systems, many of which are old, 
inefficient, and difficult to maintain.
    Every two years at the start of the new Congress, GAO 
issues a high risk report highlighting areas most in need of 
congressional oversight. In 2015 we added two new areas, 
managing VA health care and managing IT acquisitions and 
operations, which both highlighted concerns with VA's IT 
management, including past failures where hundreds of millions 
of dollars were wasted. Next week the Comptroller General will 
be testifying on our 2017 update and these two areas will 
prominently remain on the list of about 30 high risk areas.
    This morning I'd like to briefly discuss five areas where 
this Committee's continued oversight is greatly needed. Three 
areas are major acquisitions associated with electronic health 
records, scheduling, and claims processing, and two other areas 
address aging legacy systems and inefficient data centers.
    Starting with electronic health records, it is well known 
that interoperability is needed between VA and DoD and that in 
2013 a plan was abandoned to pursue a single approach. In GAO's 
view this is duplicative and we see no evidence that separate 
approaches will be cheaper or quicker. DoD is pursuing a 
commercial solution while VA is attempting to modernize its 30-
plus year old VistA system. VA is now considering a commercial 
electronic health record. This uncertainty is not acceptable 
and a decision needs to be made. VA needs to let go of VistA 
and go with the commercial solution. Further, we see no 
justification for VA and DoD pursuing separate systems.
    Turning to the scheduling system, the history with 
modernizing this system to address long wait times and errors 
is best characterized as a failure. This project was terminated 
in 2009 after spending $127 million over a nine-year period. 
Eight years later, this 30-plus year old system still needs to 
be upgraded. Similar to the EHR situation there is uncertainty 
with the approach forward and a decision needs to be made 
between enhancing the current system or going with a commercial 
product. To its credit, I'd like to add that the department has 
pilots underway looking at commercial products. Again, buying 
instead of building is the way to go.
    The final acquisition I'd like to discuss is VBMS, which is 
the system that processes disability claims among others. This 
upgrade was needed to reduce the backlog of claims and to 
process appeals better. This system was partially deployed in 
2013 and continues to be enhanced. The good news with VBMS is 
that the records are almost entirely automated, eliminated the 
inefficient paper. However this system was to be completed in 
2015. What is needed is a firm completion date and better 
transparency as to exactly what changes are being made to 
enhance disability claims and appeals processing. Our 
understanding is that this year $75 million is to be spent on 
developing this system further.
    With these three critical acquisitions congressional 
oversight is essential to ensure that several decisions are 
made quickly and that progress on all three is better than in 
the past. Our veterans need these upgrades and I would suggest 
frequent reporting to this Committee on progress. We at GAO can 
assist in this oversight in whatever manner is necessary, Mr. 
Chairman.
    Now I'd like to address the issue of old systems and 
infrastructure and how VA needs to decommission these systems 
and consolidate data centers to free up modernization funds. We 
already discussed the 30-plus year old VistA and scheduling 
systems. Last year we reported on the government's oldest 
systems and VA has two systems that are over 50 years old. One 
is a personnel and accounting system, another is associated 
with claims processing. These are expensive and difficult to 
maintain and pose security risks.
    Finally data center consolidation. Since 2010 Federal 
agencies have been consolidating data centers to address unused 
capacity. Government wide over 4,300 centers have been closed 
of the 10,000 data centers the Federal government has and 
collectively we saved $2.8 billion government wide. VA has done 
very little in this area, only closing 30 of its 391 centers 
and saving only about $19 million.
    Mr. Chairman, this concludes my statement. I look forward 
to your questions.

    [The prepared statement of David A. Powner appears in the 
Appendix]

    The Chairman. Thank you very much. The written statements 
of those who have just provided oral testimony will be entered 
into the hearing record. Now I will yield myself five minutes 
to begin questioning.
    First I would like to start off with Mr. Thomas. And I know 
that we are spending $4 billion or $4.5 billion or so each year 
on technology, which is a marked increase and obviously needed. 
I read in the report that 86 percent of the money we are 
spending on IT is used for just maintaining the current system. 
If we put an off the shelf, as the Commission on Care 
recommended, if that were adopted, and I realize all the 
hazards and difficulty in doing that, how much of that would, 
how much would you need to maintain a new system? In other 
words, what percent of that budget, instead of 86 percent? 
Would it be half the budget? A fourth the budget? Or how much 
to maintain a brand new system? Just like maintaining a new car 
usually is pretty inexpensive.
    Mr. Thomas. Chairman, I do not have an exact number on 
that. But we definitely agree that our numbers are out of 
kilter from industry. You would like to see 60 percent or so in 
maintenance and 40 percent in development. As has been 
communicated we are running an 85 to 90 percent in sustainment. 
We have to shrink that footprint. We have to shrink that 
sustainment. And we do have a legacy modernization effort now 
that we have stood up to go after those sustainment dollars to 
reduce that footprint. It would have to be, to your specific 
question, I would have to know exactly which system we were 
looking at and which ones we were replacing in order to give 
you an exact number.
    The Chairman. Certainly, I agree with that. The question, I 
guess what I was looking for, the number is significant. And 
however much that is, that could actually go into paying for a 
new system instead of maintaining an antiquated system. Do you 
agree or disagree with the statement that VistA lacks the tools 
and the extensive analytics capabilities of a modern commercial 
EHR? Do you agree or disagree with that?
    Mr. Thomas. I agree with you, Chairman.
    The Chairman. Well then we, then why are we proceeding 
down, and I know you are not, Mr. Thomas. You have been given a 
job to do. But why would VA continue down that road when 
basically DoD swallowed the bitter pill and they are in the 
process, and I know, I have implemented an electronic health 
record system. It is not easy going from paper, transporting 
from where you are now to a new system would be an enormous 
undertaking. I certainly understand that. But my fear is, I 
have been sitting here now for eight years and listening to how 
it is going to get better and so forth. And I realize there are 
a lot of good, smart people out there that are working on this. 
It is obviously not easy. But there are great commercial off 
the shelf products that can do scheduling, that can do billing. 
I was reading where I think it is TriCare and Medicare pay 
their claims at 99 percent in 30 days. VA is 60-something 
percent in 30 days and we are losing our providers. They are 
dropping off and that is hurting our chance to reform the 
Choice program. Because if you do not have network providers 
out there in the private sector you cannot do the Choice 
program. So the fact that VA does not have the technology to 
pay its bills is actually hurting our mission of health care.
    So I think, another question I have on the benefits side it 
was estimated that the life cycle costs would be about $579 
million and a year later it is $1.1 billion. That doubled in a 
year. So I think we have been sort of burned with that. We have 
seen what happened out in Denver and other things VA has done 
in house. So maybe we should look at off the shelf. And I know 
this is not your cause. Your job is to try to make the system 
work. I understand that and I appreciate your team's hard work.
    Another question I have on VBMS, how often is that system 
down, not functioning? And how much lost productivity is that, 
when people cannot access the records or anything?
    Mr. Thomas. Chairman, I do not have a specific number on 
the downtime. I will tell you that we do quarterly releases to 
make sure that the system is performing and doing what the 
benefits folks need to have. Those tools are extremely 
important for eligibility and benefits. But I do not have a 
specific number on the downtime over the past 12 months. But I 
can get back to you with that.
    The Chairman. I would appreciate that. Because I think that 
obviously delays the claims being completed. What are the 
success criteria for VistA 4 and eHMP? And I don't mean just 
the back end technological improvements. What are the new 
things clinicians are going to be able to do, such as in care 
coordination, information sharing, they cannot do now? And I 
will, I am going to gavel myself down. My time has expired. And 
if we have a second round I would appreciate the answer. I now 
yield to Mr. Walz for five minutes.
    Mr. Walz. Thank you, Mr. Chairman. Back to this issue of 
legacy costs that we were, it is my understanding DoD spends 
about 95 percent of their IT budget on managing legacy costs 
and that was one of the main reasons they gave publicly for 
moving to a commercial program for them. And so I think that 
the question Dr. Roe brought up is very interesting. Again, 
without gross generalization that used car that is sucking up 
money every single month and is undependable, it is not 
delivering what it is supposed to do, versus one that is under 
warranty, is better, again, I know it is much more complex than 
that. But I think that analysis.
    So that brings me to this. We need to know those numbers. 
And the independent assessment recommended that VA conduct a 
cost benefit analysis among commercial EHRs, open source EHRs, 
and the continued development of VA's own custom in house EHR. 
This report, they were to report this analysis to Congress by 
the end of 2016. Has this been done?
    Mr. Thomas. Ranking Member, we did complete the business 
case analysis. We completed it at the end of December. We have 
that. We would be happy to come back and talk to your team 
about that. But we do have the business case.
    Mr. Walz. Do you feel, Mr. Thomas, that data, and I do not 
know what it showed, but do you not think that would be an 
important consideration on decision-making points? What that 
shows in there in terms of cost versus those different routes?
    Mr. Thomas. Yes, absolutely. I totally agree.
    Mr. Walz. Are there commercial sources in your opinion, or 
maybe some of the experts with you, that would support VHA the 
way we need it to?
    Mr. Thomas. Absolutely. I mean, it is going to be my goal 
and my charge that we go commercial to the greatest extent 
possible. Because we have not had a great track record on 
developing software. It has been delayed. We have seen the 
delays. And it is going to be my goal to go commercial to the 
greatest extent possible.
    Mr. Walz. I think if the data leads us there, and I think 
many of us up here it has led us there, I get the feeling that 
people who sat in your position before agreed with that, too. I 
think Dr. Roe brought up an interesting point, he is probably 
right about this, unfortunately it does not appear like it is 
going to be your call. My suggestion to our colleagues is I 
think it needs to be our call, with the money, with the 
taxpayers, if we are getting the right data in this. If the 
experts are telling me this is the right way to go, if the data 
and analysis shows that, and we are simply choosing to go 
legacy routes because of unknown reasons, that is when we need 
to step in and say, no, we are going to pursue this. Which 
leads me to the next one.
    GAO believes it does not have the assurance from the VA and 
DoD are pursuing the most effective solution. And Mr. Powner, I 
appreciate your candidness on this, that they are not doing it. 
I have talked until I am blue in the face about seamless 
transition. I sat in those hearings over in HAS last year where 
one of the reasons they gave us over there is that, well, the 
VA system will not operate on submarines. Perhaps not. I do not 
know that for a fact. But the issue there being is that we have 
such unique needs in DoD versus VA that there is no possible 
way we could design an electronic health record that would have 
interoperability. It simply did not address the issue of pay, 
benefits, all the other things that could be interoperable. Is 
there any progress in our mind, Mr. Powner, that we are moving 
towards my 201 file can seamlessly shift over to either VBA or 
VHA without any glitches? Do you think that is happening? Or 
could it?
    Mr. Powner. No, not at all. I----
    Mr. Walz. Okay. So we hear about all the information they 
are sharing back and forth. We hear about all the 
communications that are starting to happen. But none of that 
matters to the veteran. What I care about is, I go into VA and 
they have everything there that I do not have to go back home 
and dig in a shoe box for, you know, whatever it is that was 
given to me paper format.
    Mr. Powner. Look, it is well documented there is a lot of 
commonality across the two departments and agencies. Yeah, 
there are some unique requirements. But what, the problem with 
the Federal government is they are so reluctant, not just VA 
but other pockets in the government, to buy commercial products 
and change antiquated business practices. Buy commercial 
product and change the business practices. That is why DoD's 
estimate is so high because it is primarily going to change the 
business practices. So that is buy one, and change the business 
practices. And if we have a few one-offs on ships or whatever 
it is then we have one-offs. But you can work around the one-
offs if you have an 80 or 90 percent solution for the two 
departments.
    Mr. Walz. And it is, and I can tell you this Committee, and 
I am very careful, again, I keep coming back to the term. I do 
not want to oversimplify something that is very complex. It is 
not as easy as people want it to say on all this. I have to 
tell you, I cannot talk to a veteran and justify why we are 
going to spend countless dollars for two systems that may not 
communicate, that do not improve the veteran experience, that 
do not make it more secure, and do not guard taxpayer dollars. 
So I am at the point now where I encourage my colleagues on 
this is we need to demand an interoperability. We need to have 
one system. We need to buy it if it works there. Then we need 
to be responsible to make sure it is implemented. And ten more 
years of it, I cannot stand it.
    The Chairman. Thank you, Mr. Walz. Chairman Bost, you are 
recognized for five minutes.
    Mr. Bost. Thank you, Mr. Chairman. And if I can, and if the 
Committee will tolerate me, going back to the Ranking Member's, 
just so you know it is very hard to explain to the general 
public why it is that we cannot take our records from DoD and 
go right into being a retired veteran, and that same medical 
record cannot be transferred. That is very difficult to explain 
to the public. Now I know it is hard to get done, and I know 
that the military and we in the military have always worked 
that way. Because remember the computers were turning up 
whenever I got out of the military and I still have the blue 
microfiche. Now I have to have find a microfiche reader to be 
able to see my records, which you cannot hardly find those 
anymore by the way. That being just an opening statement. That 
is not where I want to go with the question.
    I would like to, if I can, question Mr. Houston with the 
VBMS. You know, our last numbers we have shown that the total 
cost of the VBMS was about $1.3 billion from January, 2015. How 
much of that the department has spent on developing the VBMS to 
date? Where are we at, as far as the numbers are concerned?
    Mr. Houston. Congressman, the development cost is about 
$500 million. The remainder of that cost is testing, quality 
assurance, and then the operating costs for running the system, 
and then the cost of loading the system.
    Mr. Bost. Okay. Well the estimated cost from what I 
understand it was $579.2 million, but that was in 2009, is that 
correct?
    Mr. Houston. Sir, I am not sure where that number is from.
    Mr. Bost. Okay.
    Mr. Houston. But we did not spend $579 million in 2009.
    Mr. Bost. Okay. So the real question I have is, is does the 
VBMS have the capacity to process pension claims?
    Mr. Houston. Congressman, it currently stores all records 
for pension claims. It makes payments for some of the pension 
claims. This year we will finish the processing so that it will 
be able to pay all pension claims through the VBMS system.
    Mr. Bost. So it will be done by the end of this year?
    Mr. Houston. Yes, sir.
    Mr. Bost. Well if that is to say, now from start to finish?
    Mr. Houston. Yes, sir.
    Mr. Bost. Okay.
    Mr. Houston. In addition to the payment of the claim, we 
have integrated incoming pension claims into our central intake 
system as well. So it will be start to finish, Congressman.
    Mr. Bost. Okay. How much of a priority has this been with, 
through your agency?
    Mr. Houston. Congressman, I am new to the VBMS team. 
However, pension processing has been right behind the backlog 
as far as the priority for the systems development.
    Mr. Bost. Okay. The reason why I am asking these questions 
and the concerns I have is each one of us in our office, and 
one of my busiest members of my staff is a veteran himself that 
processes these claims. And the process and the length of time 
that it takes is so devastating to our veterans. And many 
become frustrated and they just throw their hands up and quit, 
and that is not what we want them to do. We want that 
opportunity for them to receive their claim due them, if due 
them, okay? Now that does not mean we want fraud or anything 
like that. But those that are truly due the benefits, we need 
to be able to process them as quickly as possible. And in this 
electronic age, there is no reason why we should have to wait 
as long as we do and why it actually takes an act of Congress 
to try to push through some of those that are very, very clear 
and the concerns that we have. So my hope is that you are 
continuing to work on the system to get it to where it works as 
fast as possible, at the point that the private sector feels it 
should move.
    Mr. Houston. Congressman, that is absolutely correct. And 
you mentioned end to end. I think more important than just end 
to end is automation. End to end processing with our same 
humans has the same constraint. And pension claims are math. 
And one of the things about moving them into central intake is 
to extract the numbers they wrote into data so that we can do 
automated decision-making or accelerated decision-making 
through the use of automation. And that is part of why we need 
to continue to invest in that system.
    Mr. Bost. Okay. Thank you and I yield back.
    The Chairman. I thank the gentleman for yielding. Mr. 
Takano, you are recognized for five minutes.
    Mr. Takano. Thank you, Mr. Chairman. Anyone on the panel 
might answer this question. Does interoperability between DoD 
systems and the VA systems depend on using the same vendor? In 
other words, is VA, if we are going to move toward 
interoperability, are we in a position where we are going to 
have to be forced to, say, adopt the Cerner system because DoD 
has purchased it first?
    Mr. Thomas. You will recall last year my former boss 
LaVerne Council came over and talked to you about the digital 
health platform. We went down that proof of concept during the 
summer and into the fall. And what we did prove out in that is 
that we can have full interoperability with the Cerner EHR with 
the FHIR, which is the Fast Healthcare Interoperability 
Resources. It is the industry leading standard. So we would not 
have to be on the same commercial EHR and we could have that 
interoperability you are asking about.
    Mr. Takano. So if we were to go, make a commercial decision 
to go fully commercial, we would still have an option to look 
at different providers and take bids or evaluate who might 
offer the best value in terms of a contract?
    Mr. Thomas. Yes, Congressman, that is the plan.
    Mr. Takano. Do you generally agree with the idea that who 
owns a patient's data should be the patient him or herself? You 
are nodding yes. Is it, is it the case in the private sector 
that there is complete portability of data in most cases? Is 
that something we are arriving at? Or are there impediments to 
that?
    Dr. Lee. Congressman Takano, I can speak to that. So as a 
practicing emergency room physician I have worked in many 
different health systems in the private sector and now at VA 
and also in DoD. And the interoperability or portability of 
records is a challenge in many of our systems. We are getting 
better but it is still a challenge.
    Mr. Takano. Is there a proprietary interest among private 
health care providers to really not be fully portable because 
they want to keep that information to have some sort of 
economic advantage? In other words, that data is valuable in 
terms of being able to not share, that really they are not 
fully on board with that, the patient has a full ability to 
have that data be portable.
    Dr. Lee. I personally believe that is often the case.
    Mr. Takano. Has not been the case? Okay----
    Dr. Lee. That that is often the case.
    Mr. Takano [continued]. You think that is often, that is 
the case?
    Dr. Lee. Yes. Yes.
    Mr. Takano. So here is my question in terms of our 
potential of going fully on Choice, is we have VA with its 
massive data, it is one of the largest health care systems in 
the world, looking to interact with a private sector system 
that is not going to be fully transparent, not fully on board 
with the idea of 100 percent portability. We are trying to 
achieve that between the DoD. There is no question I think that 
all of us on this Committee want that to happen with DoD and 
VA, that we have seen terrible things happen when there is not 
that 100 percent portability. But I think there is a question 
about whether that portability is something that we will be 
able to achieve in interfacing with the private sector.
    Let me see what other questions I might have had.
    Dr. Lee. Can I speak to that for----
    Mr. Takano. Please, go ahead.
    Dr. Lee [continued]. So you are absolutely correct. We need 
to improve our health information exchange with the community. 
Because now, over 30 percent of our care is actually purchased 
in the community. And so health information exchange is not 
only, and interoperability is not only critical with DoD but 
with our community partners.
    The way that we are going about doing that is through the 
eHealth Exchange, getting our community partners to sign on to 
the Health Information Exchange. And over time we have improved 
significantly in the amount of information exchange we are 
doing. So right now we have over 88 community partners, that 
represents 815 hospitals, over 430 federally qualified health 
centers, 150 nursing homes, over 8,400 pharmacies, and over 
14,000 clinics. So, and those are health systems like the Mayo 
Clinic, Cleveland Clinic, Johns Hopkins, and other major 
providers where you can now go, they can see our veterans' 
information securely and we can see information about those 
patients if they have been in those systems.
    Mr. Takano. Dr. Lee, do you think it is an important 
principle that we establish with regard to interacting with the 
30 percent of our private sector providers that the patient's 
medical information is owned by the patient and should be 100 
percent portable?
    Dr. Lee. I think that is our goal. We want to empower 
patients. It is one of our goals in VA is to engage our 
patients, our veteran patients in their care. And I think that 
would lead to better health.
    Mr. Takano. Thank you.
    The Chairman. I thank the gentleman for yielding. Just to 
comment, the 21st Century Cures Act made strides to make 
different commercial EHR systems share information. It imposes 
a $1 million penalty for every occurrence of information 
blocking. And Dr. Lee, you are absolutely right. One of the 
problems you have is being able to share data when you are in 
the ER or wherever you may be seeing a patient. I now yield 
five minutes to Dr. Dunn.
    Mr. Dunn. Thank you, Mr. Chairman. And also let me say 
thank you for allowing me to participate on this important 
Committee. I am the son of a veteran, a father of a veteran, 
and also a veteran myself. So it is very close to my heart.
    Mr. Thomas, I understand the VA has yet to resolve some 
9,500 outstanding system security risks identified by the IG as 
recently as March of last year. They also produced 35 
recommendations for improving the VA's information security 
programs, six of which were recent and 29 of which came from 
previous years. Now the VA is required under the FISMA, the 
Federal Information Security Modernization Act, to ensure 
effective security controls over your information resources. My 
question is do the weakness in your security posture put at 
risk any personally identifiable information for your patients 
or your workforce?
    Mr. Thomas. Thank you. I would say protecting the veterans' 
data and the employees' data is job one for me. It is what 
keeps me most focused and most concerned. As you communicate, 
we have had a number of findings. We have closed three of the 
eight findings. We have 35 plans in play right now. We have a 
very large focused team. And we plan to close all of those 
findings at the end of 2017. So it is a major focus for us.
    Mr. Dunn. In `17? Excellent. So is the VA aware of any 
breaches in security where personal information was retrieved 
by intruders?
    Mr. Thomas. I am not aware of any at this time but I can 
get back to you. If we have had some I have not been told.
    Mr. Dunn. Obviously, we would be curious to know that. And 
finally, can you share with the Committee why the VA has had so 
much trouble? What is keeping you from better securing this 
system? And you spoke to the timeline, so that was my question.
    Mr. Thomas. I think VA lacked a coherent strategy on cyber. 
I think in 2015 when we came together and developed the 
enterprise cyber strategy, delivered that to Congress, we 
developed an incredible plan that had a lot of details. It had 
900 actions that we needed to take care of in our integrated 
master schedule. And we have been going after all of those. 
When I came to the VA we had personally identified the PIV 
cards that everybody has to use to log on, we were at less than 
ten percent when I came to the VA. Leaving FEMA, we were at 99 
when I left FEMA. Coming to the VA, we were at ten, we are now 
at 85 percent. We have made incredible progress in the last 18 
months.
    Mr. Dunn. Thank you. Mr. Powner, in your expertise do you 
wish to add anything? Elaborate on any of those comments or----
    Mr. Powner. No. I would just say on the information 
security front, that was IG work not GAO's, but the good news 
is there were those vulnerabilities and they are fixing them. I 
think the question of the breach is I think another important 
bit of information for this Committee would be the number of 
times the VA has been attacked, whether there was a breach or 
not. Because sometimes you might have a full breach but your 
understanding of who is hitting us and at what frequency, that 
is, you kind of need to know that, too. And that is very 
important.
    Mr. Dunn. And can you share those numbers?
    Mr. Powner. I don't have that personally. I don't have that 
information. We have not done detailed work on it. But that is 
clearly something that the Chief Information Security Officer 
would have.
    Mr. Dunn. Who do you think the actors are? Who is trying to 
breach your information?
    Mr. Powner. It is all over the board. I mean, I do work, I 
do some detailed work on things like on NOAA ground systems for 
our weather satellites. They get hit and we did some recent 
work on that. And, you know, it's all over the board when you 
look at that. And that's why it's important, it's great that 
the vulnerabilities are being addressed and that hopefully 
there have not been any breaches where PI has been disclosed. 
But knowing the frequency of those attacks is very helpful 
because it helps us secure better. And we just need to be open 
with that because it is continually increasing.
    Mr. Dunn. Thank you. We would look forward to seeing those 
numbers. Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman for yielding. Ms. 
Brownley, you are now recognized for five minutes.
    Ms. Brownley. Thank you, Mr. Chairman. And I want to 
associate myself also with the comments that the Chairman has 
made and the Ranking Member as well. And I wanted to ask in 
terms of the EHR and where we are, so that we are all on the 
same page here in understanding where we are. Who is making 
that decision? And when is that decision going to be made in 
terms of going to, you know, an off the shelf system or 
continuing efforts on the VistA?
    Mr. Thomas. Thank you. I am confident we are going to go 
commercial. I can't speak for Dr. Shulkin. I hope for a speedy 
confirmation so that he can come on and help us work through 
that. I can tell you that knowing his background in industry he 
has done that and his experience has been a doctor in leading 
hospitals in the past. I have worked with him the past 18 
months. He is very decisive. And I am looking forward for a 
quick confirmation for Dr. Shulkin to come on as the Secretary.
    Ms. Brownley. And so I understand that, you know, these IT 
systems are complicated. The decision-making process should not 
be complicated, though. That should be pretty straightforward 
and simple, from my perspective. So if we go to an off the 
shelf product, when would we do that? And how long will it 
take? And do you have a timeline? I mean, it sounds like you 
cannot really until a decision has been made. But roughly, how 
long would it take if the decision was made today?
    Mr. Thomas. Congresswoman, the only thing I could go by is 
what timeline DoD has had. We are working very closely with DoD 
on how they are doing. I'm going next week up to Fairchild Air 
Force Base to the Genesis Cerner EHR ribbon cutting. I do not 
have a timeline for you. But I think once the decision is made 
we can get back to you with what that timeline would be.
    Ms. Brownley. Okay. And the GAO has commented, you know, on 
the electronic health records, on scheduling systems, on VBMS. 
And it sounds like we are making some progress on VBMS. 
Scheduling systems, I am not sure where that is. You know, 
again, I think this, the decision-making tree and the timeframe 
should be a relatively straightforward one that everybody is 
well aware of and understands that we can monitor. So are we 
waiting for Mr. Shulkin to come in and everything will be, you 
know, decided again? Or is there a timeline that everyone is 
following around some of these systems and where we are going 
to get the improvements that we need?
    Mr. Thomas. So as it relates to scheduling, we talked to 
you all last year about access being the top priority of the 
agency and that we were going to modify the VistA scheduling 
enhancement. We spent $7 million on that. We have a go-no go 
decision on putting, delivering that to all of the field. The 
go-no go decision is on 10 February. So we are very close to 
that date. We had some slip-ups through the year last year and 
because of that Dr. Shulkin as the Under Secretary of Health 
directed that we move forward with MASS, which is an epic 
commercial solution. We kicked that off in January. We went 
through critical decision one on January 19th and we are moving 
forward with the commercial scheduling capability and Boise, 
Idaho is the pilot.
    Ms. Brownley. Thank you. I just hope, Mr. Chairman, as we 
proceed this cycle that these timeframes that we have and drop 
dead dates that we can stay sort of apprised. That just we have 
a sort of almost like a cheat sheet of all these different 
systems, you know, what the timeline is going to be, where the 
decisions are, so that we can really monitor them. Because as 
you said in your opening comments, it always feels like the 
goal posts are moving and I cannot keep track of the movement 
on those goal posts because it is testified in one Committee 
that says this, and then we go to, you know, to the next 
meeting, and then it said, oh, well we had some delays. Well, 
okay, so we had delays. How are we being informed? You know 
what is the new timeline? So I just, I hope really that we can 
do that and get there.
    To the GAO, I am just wondering if you were following the 
DoD implementation of electronic records and are you sort of 
watching the success, if you will, as it rolls out? The 
interoperability with community health services as well?
    Mr. Powner. Yeah, we are monitoring that at a high level 
and we will keep you apprised on how that is going.
    Ms. Brownley. And, I mean, so far are you seeing good 
results?
    Mr. Powner. It is very early.
    Ms. Brownley. It is very early.
    Mr. Powner. It is very early. One comment on the goal post 
moving, if I could suggest, I do work for many Committees in 
the Congress on these IT issues. I think it would be very 
valuable if you guys had a quarterly update on all these 
systems. One on electronic health records, one on scheduling, 
one on VBMS. We could establish the baseline and we could get 
quarterly updates and we can assist you with those updates 
coming from the department. And then we would have very clear 
transparency on what progress is being made or if it is not 
being made, and if the goal posts change. And we would love to 
assist you in that oversight if you want to do that.
    The Chairman. Your time has expired. I think that is a 
great idea. I ask unanimous consent to allow General Bergman, 
who has got to be at another hearing in about five minutes, 
since I retired as a Major and he is a Three-Star General I 
hope I do not hear any objection to that. So if you would go 
ahead, General Bergman? Fire away. Yes, sir. I am an 04. You 
are----
    Mr. Bergman. I had better pay attention here, or listen to 
the question. Mr. Powner, your testimony states that the VA 
operates approximately 240 information systems. Of that 240, 
how many are major, how many are minor? Or are there, is there 
a third category?
    Mr. Powner. I don't have an exact number of majors and 
minors. I will say this, VA has to report on the IT dashboard 
on what is called major investments. The problem is with their 
major investments, some of those investments have multiple 
systems rolled up underneath that. Most of what they do there 
is major, major operational systems and major systems that are 
in acquisition. I think the big thing going forward when you 
look at their split on their IT spend is each year the amount 
of money they spend on development continues to lessen, while 
the amount of money they spend on their operational systems and 
salaries increases. So we are below $500 million on this $4.5 
billion and that is really what we need to kind of reverse that 
trend. They are not alone. This is a problem across the Federal 
government. But a 10-90 split, close to that, is not where we 
would need to be.
    Mr. Bergman. Okay. Thank you. Mr. Thomas, how many of those 
systems does the VA believe are necessary to really accomplish 
the mission?
    Mr. Thomas. Congressman, I think the systems we currently 
have that are even antiquated are necessary for the mission. I 
would probably say that we have five majors. I would consider 
VistA a major, VBMS a major, our interoperability is a major, 
MASS is a major, and then the newer one is our financial 
modernization. Those would be what I would consider the big 
five.
    Mr. Bergman. Thank you. Again, Mr. Powner, how would you 
recommend that the VA go about the modernization of some of 
these specific systems to eliminate those maintenance costs 
that you referred to and to free up money for new innovation?
    Mr. Powner. Yes, so the modernization or development needs 
to go hand in hand with the decommissioning of the old systems. 
So for instance, the one system I mentioned, BDN, which does 
some claims processing, that is tied to some of their 
modernization efforts. We need firm decommission dates.
    The challenge in the government is we continue to 
modernize. And VA does do the right thing on incremental 
development. We encourage that. But you need an end game, like 
on VBMS, when are you going to be able to deploy VBMS 
completely and then when are we going to be able to turn off 
this old accounting system, the old claims processing system, 
that is 50 years old?
    I will add the data center consolidation, there is an 
opportunity there not only to modernize and secure our data 
better, but to save hundreds of millions of dollars if they got 
serious about it. We mentioned DoD, that they have a worse 
split on legacy versus new development. But DoD has a great 
data center consolidation effort and I think they are planning 
to save about $4.5 billion when it is all said and done by 
about 2019 on consolidating data centers. VA needs to get in 
the same boat with DoD on data center consolidation, because 
you can shift inefficient spending into the development bucket.
    Mr. Bergman. Thank you. Mr. Thomas, would you like to add 
to that at all?
    Mr. Thomas. Well I would just completely agree. We have to 
shrink our footprint. We have often sided with delivering more 
functionality versus shutting down and decommissioning legacy 
systems. We are now going after this in an aggressive way. We 
actually stood up a team in order to go after sunset dates of 
our systems. We have to shrink our footprint. If we do not 
shrink our footprint, we do not free up dollars that we can 
develop and deliver capabilities to serve the veterans and 
improve the employees' experience. We are going after this in a 
big way.
    Mr. Bergman. Okay. Thank you. Mr. Chairman, I yield back 
the rest of my time. Thank you.
    The Chairman. Thank you for yielding. Ms. Kuster, you are 
recognized for five minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman. And I just 
want to say to General Bergman, who is the Chair of the 
Oversight and Investigations Committee, as you're Ranking I 
would look forward to working with you and ask for perhaps from 
the chair that we could have those quarterly reports unless 
they are coming to the full Committee. I am going into my third 
term. This was the very first hearing we had when the class of 
2012 came and it is discouraging. It sounds like there has been 
some progress, but there is a lot of confusion still. And I do 
not understand why we do not get progress reports and why we 
only find out about this when we come to these seemingly annual 
first hearings. So I would take you up on the GAO's suggestion 
that we get quarterly reports.
    I think it is a complex area. But we deal with a lot of 
complexities in the United States Congress. We deal with a lot 
of big budgets and we deal with a lot of IT. And it is 
discouraging to me to continue to hear about systems that are 
50 years old that pose a security risk that I cannot even 
imagine, how many people work in the VA that can do anything on 
a 50-year-old system? Were they seven years old when they 
started? I mean, how long have they been there? Who can work on 
these systems?
    Mr. Thomas. Well we have always had transition plans. But 
to your point, the available resources for those aging systems 
gets smaller every year as people retire and as people 
separate. That is what increases that risk. That is what makes 
this even more important that we get these legacy systems shut 
down.
    Ms. Kuster. And these are not minimal systems. Accounting? 
This is how we are keeping track of all these tax dollars 
across our country? Claims processing, this is why we hear from 
veterans who wait years, dozens of years, trying to get their 
fair shake on the services and the claims that they are due. So 
I just want to join those of us on both sides of the aisle 
about our frustration.
    I am interested in your testimony that buying instead of 
building is the way to go. That at least seems to be some 
progress from where we were with the VistA and the Alta and we 
want to keep our own and we do not want to look at the other. 
But I have got to ask you a question. Because there is a 
terminology question that I am concerned about. We hear about 
off the shelf, and that I presume is a term of art for a 
private proprietary commercial product. But when you use that 
going commercial, we recently heard from a VA witness that you 
are moving toward developing the digital health platform which 
actually is not commercial. That is a public private 
partnership, not off the shelf. And my understanding is that 
that could take up to 25 years. It does not currently exist. It 
would require a substantial effort, I would imagine a 
substantial cost. And look you realize, because this is your 
goal as well, we are put here to serve the veteran first and 
serve the taxpayer at the same time. And I have just got to ask 
you, what is it that you are referring to? Are you talking 
about going commercial or are you talking about some kind of 
public private partnership that would take a long time to 
develop?
    Mr. Thomas. So when we did the digital health platform, in 
that it had VistA as one of the options. But it also had a 
number of commercial off the shelf capabilities that went along 
with it. For example, customer relationship management out of 
the box already, not something that we would have to custom 
build. The analytics engine came out of the box and it was 
available. So there were commercial products along with our 
VistA so it is a hybrid.
    Ms. Kuster. Can I ask you about scheduling? Because I know 
I had a meeting in my office--now this is four years ago--with 
a company that I thought was brilliant. They had a scheduling 
product that would create efficiencies by taking into account 
people who are unlikely to show up to their appointment. They 
have a long history, they have travel issues, getting a ride, 
you know, any of the number of issues that our veterans deal 
with.
    And that you put the reliable people in the morning and 
just bang, bang, bang, get them done, and the less reliable 
people later in the day, and double book. Why isn't something 
like that in the works? Because I can't even imagine. We are 
talking about the money that we are spending on IT, we are not 
even talking about the taxpayer dollars that are being lost 
from lost productivity just out the window because people can't 
see the doctor, the health care provider, they need. If you 
could respond.
    Dr. Lee. Congresswoman Kuster, we have to modernize our 
scheduling system. It is really a priority for us because it 
does impact our ability to perfectly match the capacity of our 
providers to the demand and the appointments requested. So, as 
you heard from Mr. Thomas, we are moving forward with the 
commercial scheduling solution, MASS, that will really 
revolutionize the way that we are able to serve veterans.
    Ms. Kuster. And my time is up. What is the timeframe on 
that so my Subcommittee can keep track of that?
    Dr. Lee. So we will have results from the pilot in about 18 
months, so it will be summer of 2018. In the meantime, we do 
need an interim solution and that is the VistA Scheduling 
Enhancement that you heard about. We will have a final answer, 
go/no go, by the 10th of February.
    Ms. Kuster. I just hope this technology is not obsolete by 
the time you get it in place----
    The Chairman. Ladies.
    Ms. Kuster. --but I admire your efforts, and I hope that--
--
    The Chairman. Time has expired. Chairman Arrington, you are 
recognized for five minutes.
    Mr. Arrington. Chairman Roe, Ranking Member Walz, thank you 
for the opportunity to serve on this Committee. I represent 
West Texas, 29 counties, 40--over 40,000 veterans. I did not 
serve in the military, and so I thank God for the opportunity 
to serve those who did serve, and I hope I can make a 
contribution here.
    I got to say I am very discouraged to hear about the 
timeframe of years and the lack of productivity and problem 
solving because we are all here to serve the veterans and 
provide excellent service, there is nobody that does not want 
to do that, no one in this room. And we are also here to be 
stewards of the taxpayer monies, and I can't wrap my head 
around because we are not trying to send a man to Mars, we are 
just trying to provide services in a meaningful way, and a 
responsible way, and nothing seems to be working.
    Let me jump to my questions, I have so many I will have 
follow-up after the hearing. But I hear a lot about symptoms, 
whether it is the interoperability or the lack thereof, or the 
operating inefficiency, or the security challenges, or the 
functionality, I want to try to get at the core problem here. 
Instead of looking at the cracks, you know, on the wall, what 
is the foundational problem here?
    Is it the personnel management and the challenges in 
Government to that end? Is it leadership, the lack of 
continuity, the lack of support from the top-down over the 
years? What do you think the fundamental issues are to the 
problems that we are talking about here? I will ask Mr. Thomas 
then I will ask Mr. Powner to respond as well, please.
    Mr. Thomas. My view, is we lacked a coherent strategy. We 
lacked the right processes and procedures. For the past 18 
months we have been going through an incredible transformation. 
It used to just to develop 10 or 20 lines of code, it required 
61 artifacts, a cumbersome bureaucratic process, 58 governance 
boards. We now have a small streamlined set of governance 
boards, now the artifacts that are required are seven.
    We incrementally deliver now every 90 days. The continual, 
perpetual development delivery days are gone. We have 
transformed. We are showing up differently. We are working much 
better with our partners than we ever have before. And we have 
made that turnover, now we--that transformation has happened 
and now we need to get on with it, which is what we aim to do.
    Mr. Arrington. Mr. Powner?
    Mr. Powner. I think a couple key things here. Leadership 
turnover. Look at the CIO's situation at VA, we get a new CIO 
too frequently. And when new folks come in, what do they do? A 
new strategy, new thoughts, not enough delivery.
    Now, to be fair to VA, I think there's been some delivery, 
like I mention, on VBMS, but what we need is I do not--we do 
not want to hear another CIO coming in come up with another, we 
got a strategy. Right, Rob? We got a strategy, we got 
governance, we got processes, now you need to use it and 
deliver. That is what needs to occur. But what happens is there 
is always this new leadership coming in and they come up with a 
new idea and they do not deliver enough.
    Mr. Arrington. Are those processes and strategies 
memorialized in a strategic plan that we can have and 
consistently and repeatedly hold accountable the next group 
that comes in if its--if folks are being replaced so often?
    Mr. Powner. We actually think they are processes--we have 
done in-depth look at processes and governance at VA, pretty 
good. Do we have some recommendations? Yeah. But compared to 
some other IT shops, pretty good. Okay? And we can be real 
critical of those processes. They are pretty good, we just need 
to use it now.
    Mr. Arrington. Let me jump to another issue. The mention of 
the 85 percent of the budget being spent on operating versus 
development. How many employees are there in the IT shop there 
at the VA?
    Mr. Thomas. Eight thousand, Congressman.
    Mr. Arrington. Eight thousand. What do you spend as a 
percentage of your budget on employees, not development costs 
but employees at the agency?
    Mr. Thomas. North of a billion dollars.
    Mr. Arrington. North of a billion dollars. And have--Mr. 
Powner, have we benchmarked those numbers to other departments 
and agencies throughout the Federal Government? And is the VA 
above, way above, outrageously above?
    Mr. Powner. They have a lot more employees than most 
department stations. They are one of the largest. So, yeah, 
$1.3 billion of their $4.5 billion goes towards salaries. Here 
is the issue though. Some of the--like, we had talked about 
those old 50-year-old systems and the Cobalt programmers, you 
pay a premium after a while when these folks all start 
retiring. You either pay a premium to your employees, or you 
pay a premium to contractors.
    So as you hold onto those old Cobalt base systems that are 
50 years old, it is just getting worse every year. Every year 
it gets worse.
    The Chairman. Gentlemen's time has expired.
    I will now like to recognize a very proud New England 
Patriots bragging fan, Mr. Poliquin, for five minutes.
    Mr. Poliquin. You know, Mr. Chairman, I am very pleased 
that you brought that up, and I do not want to chew up a lot of 
my time. But you notice, sir, that I am wearing my New England 
Patriots necktie on today.
    Now this is a very serious topic we are talking about 
today, Mr. Chairman, but we have so many sports fans that are 
veterans. So this is a great day in America, Mr. Chairman. It 
is a great day for the New England Patriots, and I thank all of 
our veterans in this country for pushing us over the goal line.
    With that said, Mr. Thomas, we all love our veterans, and I 
thank you for your service to our country, sir. We just love 
our veterans. In Maine Second District, we have about 65,000, 
throughout the entire State of Maine about 125,000. And, you 
know, I know, Mr. Chairman, that it was George Washington who 
first said that we can't expect, we can't expect young men and 
women to serve in uniform unless we take care of those who have 
already served. Now I am paraphrasing, but that--everyone gets 
the point, I am sure.
    Mr. Thomas, I am very concerned with the fact that the VA 
is such a huge organization designed to do so much good. Three 
hundred and forty thousand employees, 144 VA hospitals around 
the country, about 1,200 outpatient clinics, and about 300 
veteran centers. All designed to help those that we love so 
much that have given us our freedom.
    However, there has been a spotty track record at best, if I 
may, and I am being--trying to be polite. When it comes to 
designing these IT systems, and those of us that are involved 
in the business community for a while understand that it is 
really difficult to design your own system internally and then 
customize it, it is very, very expensive. On the other hand, if 
you buy something off the shelf, Mr. Chairman, then you are put 
in the situation where you might have to adjust it also. And 
there's a real temptation to do that.
    One of the things that is a concern of mine with the VistA 
system is that in all of these outlets across the country, we 
have so many of our hospitals and outpatient clinics that have 
data, medical records and so forth, clinical information that 
are kept on local servers, or on the computers themselves.
    This thing, everybody in the world knows what it is. The 
data in this machine is kept on a cloud. And if you have it on 
a cloud, you can access that data anywhere in the world. So 
when I look at one of our great veterans from Lewiston, Maine, 
who is maybe traveling down to Florida with his family, or her 
family, and has a health problem and goes to a VA facility down 
in Florida.
    We need to make sure that these records, Mr. Chairman, are 
accessible all around the country. And I think the way to do 
that is to have one system fully integrated across the VA 
network, coast to coast.
    Now, I know that you folks are not--and I would like to 
turn not to the VistA system, which is more clinical in nature 
if I am not mistaken, but more to your financial system that 
you are now looking to modernize. And I understand that you 
folks are looking towards sharing a system with the Department 
of Agriculture, and I am all for sharing. It is a great way to 
save money, to give better service to our veterans.
    So my question to you, Mr. Thomas, is that what is going to 
be the temptation at the VA to customize a system that you are 
sharing with AG? And what would that cost if you were to do 
that? And wouldn't that put you behind?
    Mr. Thomas. I completely agree, Congressman, the whole 
track record of the Department of Agriculture already providing 
the shared services unlike what you are alluding to where we do 
it ground-up. We start developing and it goes on, and on, and 
on and we do not deliver, that is not our plan. There are many 
customers already with the Department of Agriculture, we are 
working that fit-gap analysis right now. And we are not going 
to be developing, we are going to be using what they have 
already provided to so many of their other customers.
    Mr. Poliquin. And if I may, Mr. Thomas. What is that 
expected to cost the taxpayers at the VA? What is the VA cost 
to sharing a system with AG?
    Mr. Thomas. The total cost to date, we are showing it just 
a little less than $400 million. We are starting with $40 
million this year.
    Mr. Poliquin. Four hundred million dollars to share a 
system that already exists?
    Mr. Thomas. Yes, sir.
    Mr. Poliquin. And when do you expect to be fully integrated 
with this system? How long is it going to take?
    Mr. Thomas. They are still working on the fit-gap analysis. 
Ed Murray is the CFO, and he has an executive steering 
Committee that I am a member on, they are working the gap-fit 
analysis. Once that gap-fit analysis is complete, we will have 
a schedule----
    Mr. Poliquin. And how long have they----
    Mr. Thomas [continued]. --and a timeline.
    Mr. Poliquin [continued]. And how long have they been 
working to try to find out when this will be done?
    Mr. Thomas. It is a recent start with fiscal year 2017. So 
we are just getting started, we are just getting rolling.
    Mr. Poliquin. I believe my time has expired, Mr. Chairman.
    The Chairman. Thank the gentleman for yielding.
    Dr. Wenstrup, you are recognized for five minutes.
    Mr. Wenstrup. Thank you, Mr. Chairman. Thank you all for 
being here today. You touched on something before that I would 
like to dig into a little bit deeper, which is really this 
continuity of leadership and the ever changing roles that you 
may have depending upon whoever comes in next.
    And so just out of curiosity, I will start with you, Mr. 
Powner, when did you come into the VA?
    Mr. Powner. Well, I am with GAO, so I have been with----
    Mr. Wenstrup. Okay.
    Mr. Powner [continued]. --GAO since about 2004.
    Mr. Wenstrup. And working on this type of--this entity for 
how long?
    Mr. Powner. I am actually new to the VA but I have done a 
lot of IT work across all Federal departments and agencies for 
the last 12 years.
    Mr. Wenstrup. Have you ever worked on anything as large as 
the VA?
    Mr. Powner. Yes. I do a lot of work at IRS on their tax 
systems and modernization. Same challenges.
    Mr. Wenstrup. Okay. Mr. Thomas, basically the same 
question. You have been in your role for how long?
    Mr. Thomas. The current role since the administration left, 
I have been in this role for less than a month.
    Mr. Wenstrup. Okay.
    Mr. Thomas. I have been at the VA since 2015. And I have 
had a role similar to this when I was in the Deputy CIO for the 
Air Force as a deputy to a lieutenant, many Lieutenant Generals 
in a row. Five, in fact.
    Mr. Wenstrup. But this is probably one of the larger 
missions you have had to take on then as far as the size and 
scope of what we are embracing here?
    Mr. Thomas. Yes, Congressman, that would be true.
    Mr. Wenstrup. Okay. So talk about that. And, you know, you 
come from the Air Force, there's change of leadership there. So 
what kind of things have you seen that have been the determent 
to that entity? And how do you feel now with Dr. Shulkin, who 
has been here, taking over as the secretary, what do you 
anticipate as far as perhaps better continuity or what do you 
see as far as that goes? Or are we looking at a whole new 
direction?
    Mr. Thomas. So last week I gave a public media broadcast 
out at television studio to all 8,000 employees. I communicated 
that we are going to continue with our strategy, with our plan, 
with our framework. I said now that LaVerne Council has gone to 
make the big bucks, what changes do I plan to make? I do not 
plan to make any change.
    That is why she brought me into this role. I was considered 
her left flank for the last 18 months, during her entire tenure 
I was right there with her, and that is why I am in this role 
today to continue on.
    Mr. Wenstrup. Okay. I appreciate that. Would anyone care to 
just touch in briefly, if you can, for me, like the current 
state of access and interaction amongst providers, VA providers 
that are outside the walls of the VA, ie., Choice, and those 
that are inside the wall? And how is that progressing? And what 
are the problems and challenges that you have?
    Dr. Lee. Thank you, Congressman. So the Choice Program 
continues to evolve and improve. We have made a lot of 
progress, although we know there is still a lot more work to be 
done.
    Last year--well, to date one million veterans have used the 
Choice Program to schedule more than six million appointments. 
There are more veterans seeking care in the community now than 
ever before. And we think that that is great progress because 
we want veterans to be able to have choice and options to get 
care how they want it, where they want it, when they want it. 
We now also partner with over 400,000 community providers.
    Mr. Wenstrup. I am talking about the exchange of 
information.
    Dr. Lee. Sure. The Health Information Exchange, our--we 
also have made progress there but, again, more to do. So we use 
the national eHealth Exchange, which the Office of the National 
Coordinator promoted. And it allows us to exchange, securely, 
information between providers, between health systems outside 
VA for individual veteran patients.
    I have had the experience myself. Again, I mention I am an 
ER doctor. I work at the D.C. VA. I actually worked on Saturday 
night, and I use some of these tools; Joint Legacy Viewer, 
Enterprise Health Management Platform, and others to look up 
old records from patients that I took care of. And it was 
extremely helpful, and very easy to use from a clinician's 
perspective.
    Mr. Wenstrup. So that would probably be a good segue here. 
So you are in the ER and you get a veteran come through who has 
gotten some care outside of the walls of the VA. So how rapidly 
are you able to gain access to what has been going on with the 
specialists that they see, or whatever?
    Dr. Lee. If the providers that they were seeing are 
participating in the eHealth Exchange, we can get that 
information very rapidly.
    Mr. Wenstrup. Are all of the doctors participating in 
Choice participating in the eHealth Exchange?
    Dr. Lee. I know--I do not know the exact numbers off hand, 
Congressman, we can get back to you.
    Mr. Wenstrup. But they are not required to, is what you are 
saying then?
    Dr. Lee. At this point, I am not sure exactly. But we are--
we encourage--we would like more providers, as many providers 
as possible, to participate in eHealth Exchange. And that is 
where Enterprise Health Management Platform, the EhMP, will 
really help us as the clinical providers, because it offers a 
easy-to-use search function and it organizes the data in a 
better way for us to be able to take care of those patients.
    Mr. Wenstrup. Thank you. I yield back.
    The Chairman. Gentleman's time has expired. We are going to 
have a three minute second round.
    I would like to start by just asking Mr. Thomas, and you do 
not have to respond right now, or you can. Accessibility for 
the visually and sensory impaired is very important. In 2012 
OIT issued a memo requiring compliance with Section 508, the 
Rehabilitation Act, by January 2013.
    It said, ``No software that failed to comply could be 
deployed.'' The Committee held a hearing on May 2014 and found 
progress was not good. Are all systems and Web sites Section 
508 compliant now?
    Mr. Thomas. I do not have an answer, Chairman, if they all 
are. I will have to get back to you on that. I know we are 
really aggressively working that, and I am really confident in 
the leader we have overseeing that, and his team.
    The Chairman. I think that is extremely important for our 
sight impaired veterans, so I would like to get a report on 
that.
    And then back to Dr. Lee, you were about to answer my 
question before I cut myself off, on the success criteria for 
VistA IV, and you just mentioned an EHMP. And not just the back 
end, but what are the new things that clinicians are going to 
be able to do to coordinate care and information they can't do 
now?
    Dr. Lee. So EhMP is necessary because it helps us meet--it 
helps meet some of our unique clinical needs as providers in 
VA. So in VA we practice in teams, as you know, and this 
platform enables us to work together to send messages and 
communicate more easily as a team. So that is one thing.
    Another thing it does is better clinical decision support. 
So we have tools right in the electronic health record that 
help us make decisions about which lab tests to order, which 
medications to provide at the point of care. And another 
important thing it does is--and this is really critical--is 
that it actually works not only with VistA but with commercial 
systems. So it provides many options for us, it is not just for 
VistA. It can help us to standardize our clinical work 
processes as we move to any system in the future.
    The Chairman. Mr. Poliquin mentioned this a minute ago, but 
I think absolutely getting away from all these servers all over 
the place--I know our practice moved to a cloud many years ago 
where you can access that information--that is absolutely 
critical for the country to have a central repository for 
medical information, otherwise it does not do me any good to be 
at one hospital ten miles away if I can't get the information 
other than just take another history and kind of fly by the 
seat of my pants.
    A lot of duplication. It is expensive. We order more tests 
than we need to order. So I think I would encourage VA to very 
rapidly get rid of all that information, all onsite on an 
individual computer end of server there onsite and get to a 
central cloud based.
    I now yield to Mr. Walz, three minutes.
    Mr. Walz. Well thank you, Chairman. I am thinking about the 
integration and how we move this--but I am reading from your 
trade manual, Healthcare IT News, and it says, ``In the latest 
example of a world class health system yanking its established 
electronic health record in favor of blue chip vendor, Mayo 
Clinic is migrating to Epic.''
    Here is what it said, ``Epic will deploy a single 
integrated EHR and revenue cycle management scheduling system 
at the renowned campus. This will replace Mayo's three 
currently EHRs and their accounting system, and will be the 
foundation for the next several decades of care and delivery at 
the world class institution.''
    They started exploring in April of 2015 and they have 
implemented. And there are few people--they are at 50,000 plus 
employees, that scale and that size. My question is, and maybe 
it goes to the GAO, is it unrealistic for me and this Committee 
to think that we can come to that conclusion, we can decide to 
migrate, we can set the working groups in place, and we can 
have a drop-dead deadline? Because this institution's spread 
around the world in multiple states, 50,000 plus employees, 
went from their own proprietary long legacy system, and 18 
months made the switch.
    Is it possible for us to start getting our mind wrapped 
around that?
    Mr. Powner. Absolutely. You need a decision, a plan, 
action, and I would also say, VA's one of the best at this, go 
incremental. You do not need to role out an electronic health 
care record initially that does everything. Role it out on a 
small scale basis and grow it. They are one of the best 
agencies at doing that, they know how to do that.
    Mr. Walz. I just feel like I am going to get slow rolled 
again, and not get there. I am tempted, and I do not know what 
our----
    Mr. Powner. That is why----
    Mr. Walz [continued]. --Constitutional authority is, I want 
a drop-dead date.
    Mr. Powner. If you look at this historically, you leave it 
up to the departments and agencies, I think it is going to 
happen. I think, Congress, with your oversight, whatever you 
want to do quarter--or whatever you want to do, but I think if 
you need to manage it with a heavy hand to ensure that 
deadlines are met.
    Mr. Walz. Well, I----
    Mr. Powner. (Indiscernible) deadlines are met.
    Mr. Walz [continued]. No, and I appreciate that, And to 
some of the members who are here, I know you--now I get to tell 
the old guy stories. Almost eight years ago, Dr. Roe and I were 
exploring this. We went to Iraq and Afghanistan, we went down 
to Battalion Aid Station and watched a wounded soldier come off 
of a IED hit in Afghanistan.
    Watched them open up multiple computers, followed them back 
to Bagram where they had multiple computers on, followed them 
out to the transport plane on the way back to Landstuhl. Did 
not have the capacity to send forward electronically the x-
rays, so they were taped to the chest with a big, you know, do 
not lose, on that.
    Followed them back to Landstuhl where they arrived, and 
then followed them back to here. Then over the years have 
watched those patients migrate to the VA with the whole 
intention of that was, as you might imagine, that was an 
incredibly complicated, complex process that, at times, I have 
had folks in my office because of the lack of records. We have 
a young man--and Dr. Roe hit on it--lost his sight because we 
didn't have timely record exchange. So this is care at the 
heart of this, it is not a spreadsheet, it is a diagnostic tool 
that we have got to get right. I yield back.
    The Chairman. Thank the gentleman for yielding.
    Mr. Higgins, you are recognized for three minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    It is a question for Mr. Thomas. Regarding the momentum 
financial system, sir, how did the VA system get so out of date 
while Agriculture's has stayed current? And what plans does the 
VA have to ensure the upkeep of this system following its 
implementation?
    Mr. Thomas. Congressman, I would say that there have been 
attempts before, a number of years ago, that have not gone 
well. As I stated earlier, the one thing we are not going to do 
this time is do a ground-up development effort ourselves. We 
are, in fact, going to use the best practices and lessons 
learned from, like, for example, GSA is using the Department of 
Agriculture shared service. We are going to subscribe to that 
and use that instead of developing it in-house.
    Mr. Higgins. And in your opinion, this has been the focus 
in years past, or is this a newly discovered effort to keep up?
    Mr. Thomas. This is definitely a new approach. The last 
approach was us bringing in other capabilities and developing 
that long development cycle we have discussed before. This is 
already using existing shared services that are already being 
provided to a number of Government organizations today, and we 
are just going to share those lessons learned, and move out, 
and make it happen for the VA because we are really antiquated 
in accounting and financial at the VA right now.
    Mr. Higgins. Thank you, sir.
    I yield the balance, Mr. Chair.
    The Chairman. I thank the gentleman for yielding.
    Chairman Arrington, you are recognized for three minutes.
    Mr. Arrington. I think it was you, Mr. Thomas--and, by the 
way, thank you guys for your time and your insight--but you 
mentioned that you have wanted to go commercial to the greatest 
extent possible. There seems to be this inordinate and 
unnatural preference to just fix it from within, use the 8,000 
employees and the billion dollar budget instead of going off 
the shelf.
    What is up with that? Why is there the default to this 
fixing it from within and this resistance to going 
(indiscernible), over the years? You said you are committed to 
it now, but there have been lots of years these guys have been 
on this Committee and seemingly little progress. So could you 
answer that for me?
    Mr. Thomas. In my view, Congressman, it is because when 
VistA started out it was called Decentralized Hospital Computer 
Program, and they hired developers across the Nation and all of 
those VMCs, and that has been the VA way, that is not going to 
be the VA of the future. We are definitely going to go 
commercial, we are going to definitely do software as a 
service. We have awarded cloud. We are going to start shrinking 
our data centers to get into the cloud. We are going in a 
different direction than we have.
    Mr. Arrington. So what I am--I hear, that was the VA way. 
And I am trying to understand if there is a cultural resistance 
here. You have got 8,000 people who are civil service 
employees. Is that a challenge, Mr. Powner, that you have got 
civil service employees, you have got Government rules, and, in 
my opinion as a former Federal employee at the FDIC, it is a 
real challenge to get anything done, and it is an 
extraordinary, miraculous effort to just get somebody removed 
or to downsize because you do not need the employees. How much 
of that is a factor in the last several years of not being able 
to deliver for the American People?
    Mr. Powner. It is a factor. These cultures run deep.
    Mr. Arrington. Is it a big factor?
    Mr. Powner. Mr. Thomas and I have talked about--yeah. And, 
you know, I will give you an example, too, the whole data 
center consolidation initiative.
    Mr. Chairman, you are absolutely right, we ought to be 
going to the cloud, and putting this data in the cloud, and 
going to single instances. And most agencies that have done 
that have better security, better disaster recovery, and were 
better off.
    But what happens is we like to have our data right next to 
us, and we control it, and see it, and we see the data center. 
That is the mentality with a lot of these departments and 
agencies, and it has got to stop. That is not the way we move 
forward with modern IT.
    Mr. Arrington. I will ask it a different way. How much of a 
challenge is the Government rules, civil service environment, 
to achieving results and excellent service in IT systems and 
infrastructure? Big challenge? Tremendous challenge?
    Mr. Powner. Oh, it is a challenge, sure, that definitely 
contributes.
    Mr. Arrington. Real quickly, I have just got a few. What 
would be wrong with, given the lack of continuity and 
leadership, having a multi-year enterprise architecture plan 
audited by the private sector and approved by this Committee, 
and then implemented by the VA, but it is on a multi-year 
timeframe? Has that ever happened? Why is that a bad idea?
    Mr. Powner. I think multi-year strategies are good. I think 
I will throw something else, and I think OMB's leadership out 
of the White House needs to play a role too. So there is time 
like this data center consolidation initiative. It was let out 
of the White House since 2010, we ended up putting in law and 
the FITARA, Information Technology Act, (indiscernible), in 
December of 2014 to continue it, and certain agencies did not 
make a lot of progress like VA, and OMB let them get away with 
it. That is wrong. OMB should step in and there should be 
leadership out of the White House, too, on this.
    Mr. Powner. Thank you.
    The Chairman. Gentleman's time has expired.
    Dr. Wenstrup, you are recognized, three minutes.
    Mr. Wenstrup. Thank you, Mr. Chairman. Thank you for those 
insights today, it is appreciated.
    Dr. Lee, going back to what we were talking about before. 
In my practice, you know, we would have patients in our region 
going to different hospitals, going through different ERs, 
whatever the case may be, and we were able to consolidate and 
be able to go online in our offices to access what patient care 
they got somewhere else. And it was extremely helpful, 
obviously, to us. Again, not repeating tests, things like that.
    So you talked about the eHealth Exchange and the ability to 
access those types of things. Is it a relatively simple access? 
And is it relatively easy to both read and write into it as a 
provider? And should every provider that sees a veteran under a 
VA system be required to have access to this and use it, in 
your opinion?
    Dr. Lee. So, Congressman, we have made tremendous progress 
in interoperability. The key to that under VistA Evolution was 
the Joint Legacy Viewer that actually gives s access to the DoD 
records for our patients. Two point five million patient 
records have been viewed through the Joint Legacy----
    Mr. Wenstrup. I do not men just DoD, but I mean community 
care that people are getting today, too.
    Dr. Lee. So the Enterprise Health Management Platform 
allows a very simple search ability for those types of records. 
I have tried it myself, it is easy to use. It helped me taking 
care of a patient. Some of these tools, as you said, you need 
that data right when you are seeing that patient to be able to 
make clinical decisions.
    Mr. Wenstrup. But what I am asking is, today in the 
community, if someone is getting care in the community, are the 
community providers required? Does not sound like they are 
required, to be able to use this network. And are they required 
to write into it as well so that all of those records are 
there?
    This is what I am trying to get at. That because people are 
going to various places, how easy is it, or are we not 
requiring that people are engaged in an information system that 
will give you, in the VA emergency room, access to whatever 
else they have had done? Because, you know, they say, well, we 
do not have that one, you know. Should be requiring everyone to 
participate in this? Every provider that sees a veteran?
    Dr. Lee. I think that would be the goal. One of our 
challenges actually is we need a statutory change to Title 38 
of Section 73-32, which this was actually put forth last year 
by Congressman O'Rourke on this Committee, the Vet Connect Act 
last year. But what one of our barriers in health information 
exchange and sharing is that the veteran has to opt in to 
sharing of their entire record because of certain protections 
that are in Title 38.
    What we would like to do is change that to an opt out model 
so that we can share, securely, that information with community 
providers. That will really help us tremendously in sharing 
health information.
    Mr. Wenstrup. Yeah. I think if that was just part of 
signing in when you say you are going to go to the community 
that that is a given. Anyway, thank you. I yield back.
    The Chairman. Thank the gentleman for yielding.
    Mr. Poliquin, you are recognized for three minutes.
    Mr. Poliquin. Thank you very much, Mr. Chair.
    Dr. Lee, back in--let's see, I am trying to think when this 
was, Dr. Lee. This was--well, several months ago, in any event. 
The San Diego Union Tribune came out with an article that said 
at some point in time, 6 million veterans would be able to 
schedule primary care appointments through one of these little 
gizmos. Remember that? But that was back in October, this is 
now February. Where does this all stand?
    Dr. Lee. So happy to give you an update on that, 
Congressman Poliquin. So the Veteran Appointment Request app is 
available now at 45 sites, including Togus, actually.
    Mr. Poliquin. Thank you.
    Dr. Lee. If the veteran goes to--it is Veterans----
    Mr. Poliquin. Oldest VA hospital in the Nation.
    Dr. Lee. That is right.
    Mr. Poliquin. First one.
    Dr. Lee. At Togus VA.
    Mr. Poliquin. In Maine.
    Dr. Lee. If the veteran is seen at Togus VA, they can go to 
veteran.mobilehealth.va.gov/veteran-appointment-requests. I 
have tried it myself, I have asked veterans who I know to try 
it out. You can schedule yourself for a primary care 
appointment----
    Mr. Poliquin. Okay.
    Dr. Lee [continued]. --right on your phone.
    Mr. Poliquin. Thank you, Doctor, that is wonderful news. 
Now help us out with folks that were not able to record exactly 
what you said again. Where do they go to get this----
    Dr. Lee. They can go to our----
    Mr. Poliquin [continued]. --address?
    Dr. Lee [continued]. They can go to our va.gov Web site and 
do a search for VAR, Veteran Appointment Request.
    Mr. Poliquin. Okay. And they can actually book their own 
appointment?
    Dr. Lee. Correct. That is correct.
    Mr. Poliquin. Wonderful. In the Faster Care for Veterans 
Act, Dr. Lee, I believe the way it was supposed to work is that 
if an appointment slot is cancelled, then that automatically 
goes back into the system as an available slot for an 
appointment for a veteran; is that correct?
    Dr. Lee. There were specific requirements laid out in the 
legislation, and we are working on an RFP that we will be 
putting out actually next week for this--to comply with this 
and seek other commercial solutions for self-scheduling.
    Mr. Poliquin. Okay. Dr. Thomas, looks like you want to say 
something about this initiative.
    Mr. Thomas. So we had 60 days to put out the RFP, we are on 
schedule. We have 120 days then to make a selection, we are on 
schedule for that. And then we have the remainder of that time 
in order to make the selection and the pick. But we are on 
track from the statute from December.
    Mr. Poliquin. As a culture at the VA, Mr. Thomas, how are 
your folks going to accept this new technology? You said you 
have 8,000 folks that work for you in the IT area, but there 
are 340,000 system-wide. Do you have a flavor or an idea of how 
they are going to accept this?
    Mr. Thomas. I think we have made transformation. Our 
culture is changing, it changes one employee at a time. I am 
very confident that the employees we have, we can deliver on 
what the VA employees need and what we really need to provide 
for the veterans.
    Mr. Poliquin. Because, with all due respect, it is not 
about the employees, it is about our veterans.
    Mr. Thomas. That is exactly right.
    Mr. Poliquin. Although I know many of your employees, our 
employees, are also veterans, and we are very grateful for 
their service. But it is about our veterans. Good.
    I believe my time is just about expired.
    The Chairman. Yes. Thank gentleman for yielding.
    And I want to thank our witnesses. This has been a great 
panel. I think it is impressive that the first thing we 
started--the first hearing we have had in this Congress, 115th, 
was amazingly well attended. This is an incredibly difficult 
subject. And now I would like to yield to Mr. Walz for any 
closing comments.
    Mr. Walz. Well, thank you, Chairman. And, again, I 
appreciate the collaboration and the vision that this is key to 
transformation, and it is obvious all of you know that. I want 
to thank you for that. I would also like to say, Mr. Powner, 
thank you for giving us the eye, a candid assessment.
    And, Mr. Thomas, I agree, I too am very optimistic, and I 
have been here before. I often say I am the eternal optimist 
because I supervised a high school lunch room for 20 years. I 
think you give me reasons to be optimistic.
    The one thing I would say for the gentleman from Texas, 
that there is a role for us to play in this in terms of more 
than just oversight, and they are right on the question gets 
asked. He is right about a multi-year strategy, but what he 
needs to, and I would ask him to work with us on this, we can--
there is no private business that would budget by 90 day CRs.
    There is no budget that would arbitrary freezes on 
positions that should be plus, and others should be gotten rid 
of. Having the black and white of that without an honest 
discussion makes it very difficult for you to do that. When we 
made the argument, and Dr. Roe was there as a champion, for 
advanced appropriations to make sure that our political 
squabbles did not get in the way of delivering for the health 
care side of the VA, we exempted the IT from that. Yes, our 
health care folks are there but our MRI cannot be used or 
serviced because the budget froze, or whatever it might be.
    I want to say, we understand our responsibility in terms of 
oversight, we also need to understand our responsibility giving 
you consistency in the budgeting. The gentleman is right on 
this is, we should know if all 8,000 of them are delivering, if 
they are need. You said it right, 60 percent of them are 
veterans.
    We have got good folks working there, but my concern of 
this is, if someone retires or leaves, do you have the capacity 
to rehire them? Are all the things that go into, accountability 
is more than just getting rid of people, it is filling the 
right people in the right jobs to deliver to veterans. So we 
take that seriously. I thank the Chairman for, what I consider, 
a very important--and I have to tell you, we are at a different 
spot than we have been in a while in terms of where this is 
headed, and that is good.
    The Chairman. Thank the gentleman for yielding.
    And, again, thank the panel for you all for being here 
today.
    And I think just the closing comments I have, that 
essentially all of these hearings are going to be based on 
providing the highest quality of health care we can for our 
veterans. Having them receive the benefits in a timely fashion 
that they have earned.
    And to do that, I think the absolute key, Mr. Thomas, is 
the seat you are in. If you can't process claims, or if you 
can't process, we can't build a network to see our patients, 
our veterans, outside the VA unless we are paying the providers 
outside the VA. When you do not make payments, they get out of 
the system, they can't afford to stay in it, even though they 
may want to.
    And I have said this once, I have said it 50 times here, I 
did not like the number they wrote on the check, Medicare wrote 
on it, but they wrote the check, and at the end of the month 
you got paid. So I think that is one of the things we have to 
do. I think providing that network out there without the 
information you get and share with us, cannot be done.
    And I think the other things that were brought up today are 
incredibly important about centralizing to the cloud where you 
have accessibility to the information. What Dr. Lee is saying, 
look there is a doctor that is going to be in the emergency 
room at 3:00 a.m. this morning seeing somebody they do not have 
any information on. That is hard.
    You do not make the best decisions. If you can get that 
information timely, you can reduce the number of tests, provide 
better care. So what you do is critically important for the 
whole function of the VA system. And I think it can be done 
more efficiently and cheaper.
    I know that our next hearing is going to be with the 
Secretary, and it will have to do with the Choice Program, and 
how we reintroduce that. But I really believe what you are 
doing with the technology piece is centerpiece. And it sounds 
to me like--and we will get better numbers going forward--there 
maybe not enough, but a significant amount of money in the 
budget that can be saved with an off-the-shelf program that 
does all that to actually fund it. Or fund a significant part 
of it. And we will get into that in more detail.
    But I do want to wish you, Mr. Thomas, thank you for the 
great work you are doing, and with the next assistant 
secretary, great success, and a long tenure also, so we can 
keep somebody in the spot a while.
    I ask unanimous consent that all Members have five 
legislative days which to revise and extend their remarks, and 
include extraneous materials.
    Without objection, so ordered.
    And thank the witnesses. No further witnesses.
    Meeting is adjourned.

    [Whereupon, at 11:41 a.m., the Committee and Subcommittees 
were adjourned.]




                            A P P E N D I X

                              ----------                              

              Prepared Statement of Mr. Rob C. Thomas, II
    Good Morning, Chairman Roe, Ranking Member Walz, and distinguished 
members of the Committee. Thank you for the opportunity to discuss the 
progress that VA is making towards modernizing our information 
technology (IT) infrastructure to provide the best possible service to 
our Nation's veterans.
    I am joined by Dr. Jennifer Lee, Deputy Under Secretary for Health 
for Policy and Services, in the Veterans Health Administration (VHA), 
and Mr. Brad Houston, Director of the Office of Business Process 
Integration in the Veterans Benefits Administration (VBA).
       Office of Information and Technology (OI&T) Transformation
    In July 2015, a self-assessment of our current state - derived from 
employee interviews, external reviews, and meetings with oversight 
bodies - revealed significant internal challenges at OI&T. The 
assessment presented a clear-eyed analysis of the challenges we faced, 
which confirmed other indications for a change in direction. It was 
also an opportunity to evaluate our role at VA, to envision an IT 
organization that fundamentally changed the way our veterans interface 
with VA - and empower our business partners to provide industry-leading 
access, care, services, and benefits for our veterans. It required 
nothing short of a major turnaround.
    Our transformation delivers better services and a better user 
experience to veterans, and, today, I am pleased to report progress to 
you not only on our transformation, but also on several major IT 
initiatives.

We Improved Our Organization

    In 2016, we established five critical functions that underpin our 
vision:

    <bullet>  Enterprise Program Management Office (EPMO) - OI&T's new 
control tower for IT development, provides an enterprise-wide view of 
all ongoing projects, actively manages cyber risks, and ties project 
performance to outcomes that directly improve the veteran experience. 
EPMO manages our biggest IT programs, including the Veterans Health 
Information Systems and Technology Architecture (VistA) Evolution, 
Interoperability, the Veterans Benefits Management System, and Medical 
Appointment Scheduling System (MASS).
    <bullet>  IT Account Management - After listening to our customers 
and partners, we formed the IT Account Management (ITAM) organization. 
This function establishes an integrated, dedicated customer service 
team at headquarters and in the field with National Cemetery 
Administration (NCA), VBA, and VHA. ITAMs are the linchpin between OI&T 
and our business partners; they identify opportunities for improvement 
and work directly with the Chief Information Officer and EPMO to 
implement solutions. ITAMs are supported by five Customer Relationship 
Managers that work at the regional level to gather feedback and monitor 
outcomes. The ITAM organization can now collect OI&T performance data 
nationwide, enabling a collaborative approach to issue resolution, 
change management, and innovation, as well as identifying and refining 
solutions to meet customer and stakeholder needs.
    <bullet>  Strategic Sourcing - To make the most of IT spending, 
OI&T now focuses on buying existing cutting-edge solutions before 
building customized solutions.
    <bullet>  Quality, Compliance and Risk - OI&T measures what 
matters, partners with oversight bodies such as the Office of 
Management and Budget and the Office of the Inspector General, and 
links input to outcomes.
    <bullet>  Data Management -OI&T focuses on the collection, 
protection, and analysis of VA's wealth of data to predict patient 
needs, deliver specific outcomes, and share information across VA to 
improve the veteran experience.

Outcomes from Process Changes

    We focused on programs and projects that deliver direct value to 
veterans by eliminating numerous processes, steps, and artifacts to 
streamline our services and provide faster more efficient care.

    <bullet>  In September 2016, EPMO reached full operational 
capability, successfully transitioning over 200 projects from Project 
Management Accountability Software to the Veteran-focused Intake 
Process (VIP). This transition has delivered an 86 percent on-time 
delivery rate and an estimated 85 percent project overhead cost 
avoidance since 2015.
    <bullet>  The Enterprise Cybersecurity Strategy Team (ECST) 
transformed VA cybersecurity. Accomplishments include reducing users 
with elevated privileges by 95 percent, remediating 23 million critical 
and high vulnerabilities, and removing 95 percent of prohibited 
software from the VA network and systems.

Outcomes from Investing in Our People

    Throughout 2016, we focused on our people:

    <bullet>  Results from the September 2016 Employee Engagement Task 
Force (EETF) survey show positive upticks in every measure of employee 
satisfaction since our June survey.
    <bullet>  In October 2016, EETF became the Office of Organization 
Development & Engagement, to make permanent and build upon OI&T's focus 
on a work culture that is collaborative, diverse, inclusive, and 
recognition-oriented.
                   Enterprise Cybersecurity Strategy
    Cybersecurity is another principle which underpins everything we 
develop, test and roll out. This commitment requires us to think 
enterprise-wide about security holistically. We have dual 
responsibility to store and protect veterans records, and our strategy 
addresses both privacy and security.
    In 2015, OI&T stood up an ECST to assess and address material 
weaknesses, and execute a holistic VA cybersecurity strategy in record 
time. Our strategy goes beyond satisfying statutory and regulatory 
requirements, creating a proactive security posture. Through the ECST, 
we have built a transparent, accountable, innovative, and team-oriented 
organization responsible for delivering an actionable, long-range 
cybersecurity plan.
    ECST Strategy identified eight domains that have shifted VA 
cybersecurity from a reactive to a proactive posture and set the 
baseline for how OI&T manages and evaluates the enterprise environment. 
Those domains are: (1) the medical cyber domain; (2) the governance 
domain; (3) the application and software development domain; (4) the 
cybersecurity training and human capital domain; (5) the access 
control, identification and authentication domain; (6) the operations, 
telecommunications and network security domain;(7) the security 
architecture domain; and (8) the privacy domain.
    OI&T has many accomplishments to show for this tremendous effort. 
Since we began in 2015, we:

    <bullet>  Achieved 100 percent enforcement of two-factor 
authorization (2FA) for privileged users;
    <bullet>  Implemented 100 percent 2FA for remote access;
    <bullet>  Increased PIV enforcement from 11 percent to over 80 
percent. This includes two breakthrough months when we added more than 
200,000 PIV-enforced users in August, and another 111,562 in September 
2016;
    <bullet>  Reduced the average days to remediation by 52 percent for 
critical vulnerabilities and by 52 percent for high vulnerabilities;
    <bullet>  Remediated 92 percent of critical and high medical device 
vulnerabilities for the first time in VA's history; and
    <bullet>  Achieved 100 percent completion of an automated inventory 
of medical devices.

    In the area of veteran facing systems, VA has recently added new 
protections for online safety, data protection, and identity 
management. VA has added a logon feature to vets.gov that is one of the 
few Federal consumer facing-logon accounts that meets high levels of 
security guidance and requirements (NIST 800-63 level of assurance 3) 
for credentialing and identity proofing, which has been mandated for VA 
and other government agencies.
    Our efforts to reduce risk, improve security, and ensure online 
safety will not end when we address the current material weakness. We 
will continue to identify opportunities to improve our security 
posture. Let me turn now to VistA and Interoperability.
                              Health Care
VistA

    VistA was one of the first broadly used Electronic Health Records 
(EHR) in the United States, and an open source version of VistA is 
currently available. It has been recognized for effectiveness and is 
still a high quality EHR used as the primary tool across the country. 
VA is proud of VistA, but we recognize the need for improvements.
    VistA Evolution is the joint VHA and OI&T program for improving the 
efficiency and quality of veterans' health care by modernizing VA's 
health information systems, increasing data interoperability with the 
Department of Defense (DoD) and network care partners, and reducing the 
time it takes to deploy new health information management capabilities.
    We will complete the next iteration of the VistA Evolution Program-
VistA 4-in fiscal year (FY) 2018, in accordance with the VistA Roadmap 
and VistA Lifecycle Cost Estimate. VistA 4 will bring improvements in 
efficiency and interoperability, and will continue VistA's award-
winning legacy of providing a safe, efficient health care platform for 
providers and veterans.
    VistA Evolution funds have enabled critical investments in systems 
and infrastructure, supporting interoperability, networking and 
infrastructure sustainment, continuation of legacy systems, and efforts 
- such as clinical terminology standardization - that are critical to 
the maintenance and deployment of the existing and future modernized 
VistA. This work was critical to maintaining our operational capability 
for VistA. These investments will also deliver value for veterans and 
VA providers regardless of whether our path forward is to continue with 
VistA, shift to a commercial EHR platform as DoD is doing, or some 
combination of both.

Interoperability

    Access to accurate veteran information is one of our core 
responsibilities. We recognize that a veteran's complete health history 
is critical to providing seamless, high-quality, integrated care and 
benefits. Interoperability is the foundation of this capability, as it 
enables clinicians to provide veterans with the most effective care and 
makes relevant clinical data available at the point of care.
    Today, our partners in VHA, VBA and DoD share more medical 
information than any health care organizations in the country, public 
or private. Hand in hand with our partners in DoD, we have developed 
and deployed the Joint Legacy Viewer (JLV) across the country. JLV is 
available to all clinicians in every VA facility in the country. It is 
a web-based user interface that provides the clinician an intuitive 
interface to display DoD and VA health care data on a single screen. VA 
and DoD clinicians can use JLV to access, the health records of 
veterans, Active Duty, and Reserve Service members from all VA, DoD and 
enrolled VA external partner facilities where a patient has received 
care. VA certified VA-DoD interoperability on April 8, 2016, in 
accordance with section 713(b)(1) of the National Defense Authorization 
Act for FY2014 (Public Law 113-66).
    JLV is not a ``screenshot'' sharing technology; it organizes 
medical record data in a customizable, easy-to-use web-based browser 
presentation. It provides a patient-centric, rather than facility-
centric, view of health records in near realtime. Clinicians are able 
to make better-informed care decisions with the click of a button. 
Providers from a variety of specialties have shared positive feedback 
and user stories proving information can flow seamlessly between DoD 
and VA. JLV is also available in all VBA Regional Offices, to expedite 
claims processing. I am pleased to share the following statistics on 
JLV, as of December 11, 2016:

    <bullet>  There were 203,785 authorized VA health care users;
    <bullet>  14,274 authorized VA benefits professional users; and
    <bullet>  2,000,000+ records accessed.

    JLV is a critical step in connecting VA and DoD health systems. 
However, it is a read-only application. Building on the 
interoperability infrastructure supporting JLV, the Enterprise Health 
Management Platform (eHMP) will ultimately replace our current read-
write point of care application. eHMP is a cornerstone of the VistA 
Evolution Program, building on the capability for clinically 
actionable, patient-centric data pioneered by JLV. eHMP will provide a 
modern, secure, configurable web-based platform that will expand JLV's 
capabilities. Upon completion, eHMP will offer robust support for 
veteran-centric health care, team based health care, quality driven 
health care, and improved access based on clinical need.
    Modernization is a process - not an end - and the plan to release 
VistA 4 in FY2018 will not be the ``end'' of VA's EHR modernization. VA 
intends to continue modernizing VA's EHR, beyond VistA 4, with more 
modern and flexible components.
    Integrating new systems with old platforms is a pervasive challenge 
at VA, and scheduling is an example of this kind of transition. Veteran 
appointment wait time issues were partly attributed to antiquated 
scheduling systems.

VSE

    VistA Scheduling Enhancements (VSE) will provide critical near-term 
enhancements. It will improve the appointment scheduling process by 
providing a modern graphical user interface. It will also result in 
reduced appointment wait times, improved adherence to industry 
standards, and elimination of manual processes.
    VA's current scheduling application successfully schedules millions 
of appointments, but it is cumbersome to use; does not have a modern 
look-and-feel; and does not include functions that can drive improved 
operational efficiencies. VSE is intuitive to use with a calendar 
display. The more modern view alone will enhance scheduler's 
efficiency. Other functions that allow for selection by location, 
clinic, clinician or specialty, improved ability to find available 
appointments, a single queue for appointment requests, resource 
management reporting ,and a more complete view of availability will 
improve our use of clinical resources to reduce wait times. If approved 
for national implementation, VSE 1.1 will be deployed March through May 
2017, starting in Primary Care.

MASS

    In addition to VSE, VA awarded a contract for MASS. MASS is one 
option in VA's overall strategy to provide state-of-the-art electronic 
health record, scheduling, workflow management and analytics 
capabilities to frontline caregivers. MASS could replace the VistA 
Scheduling application with a resource-based medical appointment 
scheduling solution that allows VA to monitor demand for patient care, 
and track VA's capacity to provide such care. VA will evaluate the 
capabilities provided through the contract alongside enhancements to 
the current VistA through VSE to determine the most efficient and 
effective means of improving access to care for Veterans.

Veteran Appointment Request (VAR) Application

    In addition to reducing wait times, we are focused on improving the 
Veteran's experience. We must open our doors wider to allow more direct 
contact with Veterans through the tools of their choice. To do that, we 
have developed, through a public-private partnership, a mobile 
application known as VAR. The software allows established primary care 
patients to directly and immediately schedule and cancel primary care 
appointments with their assigned Patient Aligned Care Team provider. 
The application also allows Veterans to obtain online assistance from a 
trained VA scheduler in booking both primary care and mental health 
appointments.

Public Law No: 114-286, Faster Care for Veterans Act of 2016

    The Faster Care for Veterans Act of 2016, (Public Law 114-286) 
requires VA to establish an 18 month pilot program operational in at 
least three Veterans Integrated Service Networks under which Veterans 
can use an internet website or mobile application to schedule and 
confirm medical appointments at VA medical facilities. VA is required 
to seek to enter into a contract using competitive procedures to 
provide the scheduling capability identified in the law. VA agrees with 
the need to provide Veterans with tools to empower them while reducing 
wait times and improving the Veteran experience. We will work with 
Congress and the stakeholder community to ensure we meet our shared 
goals.
                                Benefits
Veterans Benefits Management System (VBMS)

    The ability to quickly and accurately provide to veterans the 
benefits they have earned has always been a VA goal. Over the last 
several years, VA has made progress to adjudicate disability 
compensation claims more quickly and accurately. VBMS serves as the 
cornerstone of VA's benefits claims processing capability. Since the 
initial phases of its development, VBMS has become the foundation and 
platform for automating claims processing across VBA's business lines. 
Today, VBMS assists VBA with processing billions of dollars in benefits 
delivery each month for millions of beneficiaries. In partnership with 
VBA, and with VBMS as the foundation, we have completely reinvented 
claims intake and evidence management, ensuring everything a veteran 
provides is immediately digitized and available for claims processing, 
leading to massive improvement in mail processing time and gathering of 
evidence. As a result of these efforts, average mail handling time for 
VBA personnel to process inbound mail is now only four days, down from 
55 days in 2015.
    The next phase of progress for VBMS will focus on the veteran 
experience enabled by an integrated electronic operating environment 
that will:

    <bullet>  Empower veterans by providing common access points, 
better access to information for veterans and a more seamless 
experience when veterans interact with VA.
    <bullet>  Engaging partners through improved data exchange 
capabilities, automation and information access.
    <bullet>  Enhanced operations through expansion of eFolders 
capabilities, refined and/or automated business processes, and a more 
integrated approach to overall benefits delivery.

    Examples of specific functionality to be delivered in VBMS in 
fiscal years 2017 and 2018 include:

    1.Completion of automation for medical exam requests.

    2.Providing full access to the claims folder to veterans online.

    3.Reducing multiple touches by VBA staff and providing better 
veteran experience, through `day of discharge' payments for separating 
Servicemembers.

    4.Centralizing and automating outbound mail to Veterans, which 
eliminates manual printing and stuffing of envelopes by VBA employees, 
allowing those same employees to focus on other claims development 
activities

    5.Automating the decision segment for `routine future' examinations 
(100,000 claims per year).

    6.Automating pension medical expense adjustments (75,000 per year).

    VBMS will deliver key functionality that enables quicker, more 
accurate and integrated claims processing while laying the foundation 
for future, veteran-centric enterprise business capabilities. By 
prioritizing this work above other needed functionality, VA will 
deliver as planned. The system is currently operational with numerous 
enhancements planned and underway to achieve the full scope of VBMS's 
planned functionality. Some of these include automated decision support 
tools and rules-based claims processing. Delivering the full scope of 
planned VBMS functionality (both VBMS itself and integration with 
legacy environment) is essential to meeting goals of VBA's 
modernization of benefits delivery.

Appeals Modernization

    As we have made progress in developing and deploying the tools 
necessary to adjudicate claims, we have also invested in improving 
technologies used to process and decide appeals of benefit claims. We 
are currently working to move away from the current process that uses 
disjointed uncoordinated systems. Appeals modernization is truly an 
Enterprise-Wide initiative that will have a direct impact on veterans 
by enabling VA to provide timely and quality appeals decisions, as well 
as visibility on appeals across the Department.
    The goal for appeals modernization is to improve the veteran 
Experience through a streamlined the end-to-end appeals process. VA 
will replace outdated technology with modern technology that is easy to 
use and less expensive to maintain. The new solution, called Caseflow, 
will replace veterans Appeals Control and Locator System and automate 
manual processes for reviewing records and drafting appeals decisions 
while improving workflows that need to cross organizations.
    Under the leadership of the VA Digital Services team, iterative and 
continuous delivery of usable functionality is being deployed weekly to 
a limited number of users. The limited release approach allows for 
improvement before deploying the solution to all users. The core 
functionality will be fully delivered by end of FY2017. However, in 
order to more fully address the improvements necessary to reform the 
current appeals process, legislative action will be necessary.
                          Legacy Modernization
    VA is in a continuous cycle of modernization and upgrading to new 
technology, new systems and new tools for use by veterans, to improve 
how we care for them, and how their data is safely managed and operated 
online. VA is in the process of formalizing a new strategy to modernize 
legacy systems. The purpose of this approach is to identify and 
decommission outmoded technology, recapture resources, and re-program 
freed resources towards priority business needs. The sequencing plan 
will be integrated into the lifecycle management of VA's IT systems.
    The benefits of this strategy are several and agency-wide: VA will 
maintain a more affordable technology footprint; overall business 
capabilities will be improved as obsolete equipment is retired; 
operational performance will also improve in business and technical 
systems as resources are re-programmed toward current needs.
    The EPMO will lead the effort to put this strategy in place. The 
strategy will:

    <bullet>  Establish a dedicated team to operationalize these 
capabilities;
    <bullet>  Identify a list of known modernization efforts;
    <bullet>  Develop criteria for what constitutes a legacy system and 
its associated components;
    <bullet>  Inventory legacy systems, identifying those most critical 
to business continuity; and
    <bullet>  Identify early candidates suitable for accelerated 
decommissioning efforts

    VA plans to integrate the legacy modernization strategy with IT 
Infrastructure Library and existing VIP and OI&T governance processes. 
There will be a needed training component, as well as change management 
planning and execution. Looking ahead, VA will integrate full lifecycle 
cost estimation and analysis into our demand management and intake 
process.
                          Other Major Programs
    Community Care IT Support is a program of 39 distinct IT projects. 
These projects collectively address the six pillars needed for an 
effective VA Care in the Community Program: (1) Eligibility; (2) 
Referrals and Authorization; (3) Care Coordination; (4) Community Care 
Network; (5) Provider Payment; and (6) Customer Experience. The program 
is currently on track with a strong program management team. It is 
carefully scrutinized bi-weekly by a joint VHA/OI&T executive oversight 
board and is on the VHA/OI&T FY2017 Joint Business Plan as a high 
impact program requiring close executive oversight and involvement/
intervention should issues arise.
    Financial Systems is embarking on a multi-phase project to migrate 
VA to a shared service provider. The current first phase of the project 
is focused on accounting and acquisitions. The goals of this effort are 
to maintain a clean opinion, eliminate material weaknesses, eliminate 
improper payments, and move to an environment where clean data can 
provide realtime business intelligence.
                               Conclusion
    OI&T is transforming. Evolving veterans' needs have driven us to 
change and adapt. Through the MyVA initiative, VA is modernizing its 
culture, processes, and capabilities to put veterans first, prioritize 
resources, and give our team the opportunity to make a real difference 
in veterans' lives. This momentum is driving us to transform OI&T on 
behalf of our customers, partners, our employees, and veterans.
    OI&T will continue to make bold reforms that will shape how we 
deliver IT services and health care in the future, as well as improve 
the experiences of veterans, community providers, and VA staff. 
Throughout this transformation, our number one priority has and will 
always be the veteran - ensuring a safe and secure environment for 
their information and improving their experience is our goal.
    Despite the progress, we cannot do it alone. We need the continued 
collaboration with our stakeholder community - veterans, Veterans 
Service Organizations, public and private organizations, and Congress. 
We believe your support has been critical to achieving our successes 
with developing claims processing tools and enabling interoperability 
and will be critical towards giving our clinicians the tools they need. 
Your support for the upcoming FY2018 budget will get us closer to that 
future. We are committed to serving veterans and look forward to 
working closely with you on their behalf.
    This concludes my testimony, and I am happy to answer your 
questions.

                                 <F-dash>
                 Prepared Statement of David A. Powner

                VETERANS AFFAIRS INFORMATION TECHNOLOGY
Management Attention Needed to Improve Critical System Modernizations, 
          Consolidate Data Centers, and Retire Legacy Systems

Information Technology Management Issues

    Chairman Roe, Ranking Member Walz, and Members of the Committee:
    Thank you for the opportunity to participate in today's hearing on 
the information technology (IT) modernization projects and programs at 
the Department of Veterans Affairs (VA). As you know, the use of IT is 
crucial to helping VA effectively serve the Nation's veterans and, each 
year, the department spends billions of dollars on its information 
systems and assets.
    However, over many years, VA has experienced challenges in managing 
its IT projects and programs, raising questions about the efficiency 
and effectiveness of its operations and its ability to deliver intended 
outcomes needed to help advance the department's mission. These 
challenges have spanned a number of critical initiatives related to 
sharing electronic health record data and developing major systems, in 
addition to improving the efficiency of operations by closing and 
optimizing data centers and decommissioning antiquated legacy systems. 
We have previously reported on these and other IT management challenges 
at the department.
    At your request, my testimony today summarizes findings from a 
number of our reports that addressed VA's efforts toward exchanging 
electronic health records with the Department of Defense (DoD) and 
highlighted IT challenges that have contributed to our designation of 
VA health care as a high-risk area. \1\ In addition, it discusses our 
prior work on the department's development and use of its benefits 
claims processing system, the Veterans Benefits Management System 
(VBMS), as well as our recent reports that addressed VA's data center 
consolidation and legacy systems. \2\
---------------------------------------------------------------------------
    \1\ GAO, Electronic Health Records: Outcome-Oriented Metrics and 
Goals Needed to Gauge DoD's and VA's Progress in Achieving 
Interoperability, GAO 15 530 (Washington, D.C.: Aug. 13, 2015) and High 
Risk Series: An Update, GAO-15-290 (Washington, D.C.: Feb. 11, 2015).
    \2\ GAO, Veterans Benefits Management System: Ongoing Development 
and Implementation Can Be Improved; Goals Are Needed to Promote 
Increased User Satisfaction, GAO 15 582 (Washington, D.C.: Sept. 1, 
2015); Data Center Consolidation: Agencies Making Progress, but Planned 
Savings Goals Need to Be Established, GAO-16-323 (Washington, D.C.: 
Mar. 3, 2016); and Information Technology: Federal Agencies Need to 
Address Aging Legacy Systems, GAO-16-468 (Washington, D.C.: May 25, 
2016).
---------------------------------------------------------------------------
    In developing this testimony, we relied on our previous reports, as 
well as information provided by the department on its actions in 
response to our previous recommendations. The reports cited throughout 
this statement include detailed information on the scope and 
methodology for our reviews.
    The work upon which this statement is based was conducted in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Background

    VA's mission is to promote the health, welfare, and dignity of all 
veterans in recognition of their service to the Nation by ensuring that 
they receive medical care, benefits, social support, and lasting 
memorials. VA is the second largest Federal department and, in addition 
to its central office located in Washington, D.C., has field offices 
throughout the United States, as well as the U.S. territories and the 
Philippines.
    The department's three major components-the Veterans Health 
Administration (VHA), the Veterans Benefits Administration (VBA), and 
the National Cemetery Administration (NCA)-are primarily responsible 
for carrying out its mission. More specifically, VHA provides health 
care services, including primary care and specialized care, and it 
performs research and development to improve veterans' needs. VBA 
provides a variety of benefits to veterans and their families, 
including disability compensation, educational opportunities, 
assistance with home ownership, and life insurance. Further, NCA 
provides burial and memorial benefits to veterans and their families.
    Collectively, the three components rely on approximately 340,000 
employees to provide services and benefits. These employees work in 
VA's Washington, D.C. headquarters, as well as 167 medical centers, 
approximately 800 community-based outpatient clinics, 300 veterans 
centers, 56 regional offices, and 131 national and 90 state or tribal 
cemeteries situated throughout the Nation.

VA Relies Extensively on IT

    The use of IT is critically important to VA's efforts to provide 
benefits and services to veterans. As such, the department operates and 
maintains an IT infrastructure that is intended to provide the backbone 
necessary to meet the day-to-day operational needs of its medical 
centers, veteran-facing systems, benefits delivery systems, memorial 
services, and all other systems supporting the department's mission. 
The infrastructure is to provide for data storage, transmission, and 
communications requirements necessary to ensure the delivery of 
reliable, available, and responsive support to all VA staff offices and 
administration customers, as well as veterans.
    Toward this end, the department operates approximately 240 
information systems, manages approximately 314,000 desktop computers 
and 30,000 laptops, and administers nearly 460,000 network user 
accounts for employees and contractors to facilitate providing benefits 
and health care to veterans. These systems are used for the 
determination of benefits, benefits claims processing, patient 
admission to hospitals and clinics, and access to health records, among 
other services.
    VHA's systems provide capabilities to establish and maintain 
electronic health records that health care providers and other clinical 
staff use to view patient information in inpatient, outpatient, and 
long-term care settings. The department's health information system- 
the Veterans Health Information Systems and Technology Architecture 
(VistA)-serves an essential role in helping the department to fulfill 
its health care delivery mission. Specifically, VistA is an integrated 
medical information system that was developed in-house by the 
department's clinicians and IT personnel, and has been in operation 
since the early 1980s. \3\ The system consists of 104 separate computer 
applications, including 56 health provider applications; 19 management 
and financial applications; 8 registration, enrollment, and eligibility 
applications; 5 health data applications; and 3 information and 
education applications. Within VistA, an application called the 
Computerized Patient Record System enables the department to create and 
manage an individual electronic health record for each VA patient.
---------------------------------------------------------------------------
    \3\ VistA began operation in 1983 as the Decentralized Hospital 
Computer Program. In 1996, the name of the system was changed to VistA.
---------------------------------------------------------------------------
    VBA relies on VBMS to collect and store information such as 
military service records, medical examinations, and treatment records 
from VA, DoD, and private medical service providers. In 2014, VA issued 
its 6-year strategic plan, which emphasizes the department's goal of 
increasing veterans' access to benefits and services, eliminating the 
disability claims backlog, and ending veteran homelessness. According 
to the plan, the department intends to improve access to benefits and 
services through the use of enhanced technology to provide veterans 
with access to more effective care management. The plan also calls for 
VA to eliminate the disability claims backlog by fully implementing an 
electronic claims process that is intended to reduce processing time 
and increase accuracy. Further, the department has an initiative under 
way that provides services, such as health care, housing assistance, 
and job training, to end veteran homelessness. Toward this end, VA is 
working with other agencies, such as the Department of Health and Human 
Services, to implement more coordinated data entry systems to 
streamline and facilitate access to appropriate housing and services.
    VA reported spending about $3.9 billion to improve and maintain its 
IT resources in fiscal year 2015. Specifically, the department reported 
spending approximately $548 million on new systems development efforts, 
approximately $2.3 billion on maintaining existing systems, and 
approximately $1 billion on payroll and administration. For fiscal year 
2016, the department received appropriations of about $4.1 billion for 
IT--about $505 million on new systems development, about $2.5 billion 
on maintaining existing systems, and about $1.1 billion on payroll and 
administration.
    For fiscal year 2017, the department's budget request included 
nearly $4.3 billion for IT. The department requested approximately $471 
million for new systems development efforts, approximately $2.5 billion 
for maintaining existing systems, and approximately $1.3 billion for 
payroll and administration. In addition, in its 2017 budget submission, 
the department requested appropriations to make improvements in a 
number of areas, including:

    <bullet>  veterans' access to health care, to include enhancing 
health care-related systems, standardizing immunization data, and 
expanding telehealth services ($186.7 million);
    <bullet>  veterans' access to benefits by modernizing systems 
supporting benefits delivery, such as VBMS and the Veterans Services 
Network ($236.3 million);
    <bullet>  veterans' experiences with VA by focusing on integrated 
service delivery and streamlined identification processes ($171.3 
million);
    <bullet>  VA employees' experiences by enhancing internal IT 
systems ($13 million); and
    <bullet>  information security, including implementing strong 
authentication, ensuring repeatable processes and procedures, adopting 
modern technology, and enhancing the detection of cyber vulnerabilities 
and protection from cyber threats ($370.1 million).

VA Has a Long History of Working to Share Electronic Health Records 
    with DoD

    Electronic health records are particularly crucial for optimizing 
the health care provided to veterans, many of whom may have health 
records residing at multiple medical facilities within and outside the 
United States. Taking steps toward interoperability-that is, 
collecting, storing, retrieving, and transferring veterans' health 
records electronically-is significant to improving the quality and 
efficiency of care. One of the goals of interoperability is to ensure 
that patients' electronic health information is available from provider 
to provider, regardless of where it originated or resides.
    Since 1998, VA has undertaken a patchwork of initiatives with DoD 
to allow the departments' health information systems to exchange 
information and increase interoperability. \4\ Among others, these have 
included initiatives to share viewable data in the two departments' 
existing (legacy) systems, link and share computable data between the 
departments' updated heath data repositories, and jointly develop a 
single integrated system that would be used by both departments. Table 
1 summarizes a number of these key initiatives.
---------------------------------------------------------------------------
    \4\ DoD uses a separate electronic health record system, the Armed 
Forces Health Longitudinal Technology Application, which consists of 
multiple legacy medical information systems developed from customized 
commercial software applications.


 
                   Initiative                       Year begun                     Description
 
      Government Computer-Based Patient Record            1998           This interface was expected to compile
                                                                      requested patient health information in a
                                                                    temporary, ``virtual'' record that could be
                                                                         displayed on a user's computer screen.
           Federal Health Information Exchange            2002     The Government Computer-Based Patient Record
                                                                   initiative was narrowed in scope to focus on
                                                                    enabling the Department of Defense (DoD) to
                                                                 electronically transfer servicemembers' health
                                                                      information to the Department of Veterans
                                                                 Affairs (VA) upon their separation from active
                                                                   duty. The resulting initiative, completed in
                                                                           2004, was renamed the Federal Health
                                                                       Information Exchange. This capability is
                                                                  currently used by the departments to transfer
                                                                                           data from DoD to VA.
     Bidirectional Health Information Exchange            2004      This capability provides clinicians at both
                                                                 departments with viewable access to records on
                                                                 shared patients. It is currently used by VA and
                                                                   DoD to view data stored in both departments'
                                                                                     heath information systems.
Clinical Data Repository/Health Data Repository           2004         This interface links DoD's Clinical Data
                                     Initiative                   Repository and VA's Health Data Repository to
                                                                           achieve a two-way exchange of health
                                                                                                   information.
                                      Virtual Lifetime Ele2009nic RecTo streamline the transition of electronic
                                                                          medical, benefits, and administrative
                                                                      information between the departments, this
                                                                 initiative enables access to electronic records
                                                                     for servicemembers as they transition from
                                                                 military to veteran status and throughout their
                                                                 lives. It also expands the departments' health
                                                                   information-sharing capabilities by enabling
                                                                          access to private-sector health data.
              Joint Federal Health Care Center            2010                            The Captain James A. Lovell Federal Health Care
                                                                   Center was a 5-year demonstration project to
                                                                   integrate DoD and VA facilities in the North
                                                                       Chicago, Illinois, area. It is the first
                                                                  integrated Federal health care center for use
                                                                  by beneficiaries of both departments, with an
                                                                   integrated DoD-VA workforce, a joint funding
                                                                       source, and a single line of governance.
 
Source: GAO summary of prior work and department documentation


    In addition to the initiatives mentioned in table 1, VA has worked 
in conjunction with DoD to respond to provisions in the National 
Defense Authorization Act for Fiscal Year 2008. \5\ This act required 
the departments to jointly develop and implement fully interoperable 
electronic health record systems or capabilities in 2009. Yet, even as 
the departments undertook numerous interoperability and modernization 
initiatives, they faced significant challenges and slow progress. We 
have reported, for example, that the two departments' success in 
identifying and implementing joint IT solutions has been hindered by an 
inability to articulate explicit plans, goals, and timeframes for 
meeting their common health IT needs. \6\
---------------------------------------------------------------------------
    \5\ Pub. L. No. 110-181, Sec.  1635, 122 Stat. 3, 460-463 (2008).
    \6\ GAO, Electronic Health Records: DoD and VA Should Remove 
Barriers and Improve Efforts to Meet Their Common System Needs, GAO-11-
265 (Washington, D.C.: Feb. 2, 2011); Electronic Health Records: DoD 
and VA Interoperability Effort are Ongoing; Program Office Needs to 
Implement Recommended Improvement, GAO-10-332 (Washington, D.C.: Jan. 
28, 2010); Electronic Health Records: DoD and VA Have Increased Their 
Sharing of Health Information, but More Work Remains, GAO-08-954, 
(Washington, D.C.: July 28, 2008); and Computer-Based Patient Records: 
Better Planning and Oversight By VA, DoD, and IHS Would Enhance Health 
Data Sharing, GAO-01-459 (Washington, D.C.: Apr. 30, 2001).
---------------------------------------------------------------------------
    In March 2011, the secretaries of VA and DoD announced that they 
would develop a new, joint integrated electronic health record system 
(referred to as iEHR). This was intended to replace the departments' 
separate systems with a single common system, thus, sidestepping many 
of the challenges they had previously encountered in trying to achieve 
interoperability. However, in February 2013, about 2 years after 
initiating iEHR, the secretaries announced that the departments were 
abandoning plans to develop a joint system, due to concerns about the 
program's cost, schedule, and ability to meet deadlines. The 
Interagency Program Office (IPO), put in place to be accountable for 
VA's and DoD's efforts to achieve interoperability, reported spending 
about $564 million on iEHR between October 2011 and June 2013. 
Following the termination of the iEHR initiative, VA and DoD moved 
forward with plans to separately modernize their respective electronic 
health record systems.
    In light of VA and DoD not implementing a solution that allowed for 
the seamless electronic sharing of health care data, the National 
Defense Authorization Act for Fiscal Year 2014 \7\ included 
requirements pertaining to the implementation, design, and planning for 
interoperability between the departments' electronic health record 
systems. Among other actions, provisions in the act directed each 
department to (1) ensure that all health care data contained in their 
systems (VA's VistA and DoD's Armed Forces Health Longitudinal 
Technology Application, referred to as AHLTA) complied with national 
standards and were computable in realtime by October 1, 2014; and (2) 
deploy modernized electronic health record software to support 
clinicians while ensuring full standards-based interoperability by 
December 31, 2016.
---------------------------------------------------------------------------
    \7\ Pub. L. No. 113-66, Div. A, Title VII, Sec.  713, 127 Stat. 
672, 794-798 (Dec. 26, 2013).
---------------------------------------------------------------------------
    In August 2015, we reported that VA, in conjunction with DoD, had 
engaged in several near-term efforts focused on expanding 
interoperability between their existing electronic health record 
systems. For example, the departments had analyzed data related to 25 
``domains'' identified by the Interagency Clinical Informatics Board 
\8\ and mapped health data in their existing systems to standards 
identified by the IPO. The departments also had expanded the 
functionality of their Joint Legacy Viewer-a tool that allows 
clinicians to view certain health care data from both departments.
---------------------------------------------------------------------------
    \8\ This board is made up of senior clinical leaders who represent 
the user community and establish priorities for interoperable health 
data between VA and DoD.
---------------------------------------------------------------------------
    More recently, in April 2016, VA and DoD certified that all health 
care data in their systems complied with national standards and were 
computable in realtime. However, VA acknowledged that it did not expect 
to complete a number of key activities related to its electronic health 
record system until sometime after the December 31, 2016, statutory 
deadline for deploying modernized electronic health record software 
with interoperability. Specifically, the department stated that 
deployment of a modernized VistA system at all locations and for all 
users is not planned until 2018. \9\
---------------------------------------------------------------------------
    \9\ Full operational capability of DoD's modernized health 
information system is not planned to occur until the end of fiscal year 
2022.

---------------------------------------------------------------------------
VA's IT Organization Has Undergone Recent Changes

    VA's recently departed Chief Information Officer (CIO) initiated an 
effort to transform the focus and functions of the Office of 
Information and Technology (OI&T), which is responsible for providing 
IT services across VA and managing the department's IT assets and 
resources. The CIO's transformation strategy, initiated in January 
2016, called for OI&T to focus on stabilizing and streamlining 
processes, mitigating weaknesses highlighted in GAO assessments, and 
improving outcomes by institutionalizing a new set of IT management 
capabilities.
    As part of this transformation, the CIO began transitioning the 
oversight of and accountability for IT projects to a new project 
management process called the Veteran-focused Integration Process in 
January 2016, in an effort to streamline systems development and the 
delivery of new IT capabilities. The CIO established five new functions 
within OI&T:

    <bullet>  The enterprise program management office is to serve as 
OI&T's portfolio management and project tracking organization.
    <bullet>  The account management function is to be responsible for 
managing the IT needs of VA's major components.
    <bullet>  The quality and compliance function is to be responsible 
for establishing policy governance and standards and ensuring adherence 
to them.
    <bullet>  The data management organization is expected to improve 
both service delivery and the veteran experience by engaging with data 
stewards to ensure the accuracy and security of the information 
collected by VA.
    <bullet>  The strategic sourcing function is to be responsible for 
establishing an approach to fulfilling the department's requirements 
with vendors that provide solutions for those requirements, managing 
vendor selection, tracking vendor performance and contract 
deliverables, and sharing insights on new technologies and capabilities 
to improve the workforce knowledge base.

    According to the former CIO, the transformation strategy was 
completed in the first quarter of fiscal year 2017.

FITARA Requires VA to Address Data Center Consolidation

    Recognizing the importance of reforming the government-wide 
management of IT, Federal Information Technology Acquisition Reform 
provisions (commonly referred to as FITARA) were enacted in December 
2014 as part of the Carl Levin and Howard P. ``Buck'' McKeon National 
Defense Authorization Act for Fiscal Year 2015. \10\ The law was 
intended to improve covered agencies' acquisitions of IT and further 
enable Congress to monitor agencies' progress and hold them accountable 
for reducing duplication and achieving cost savings. FITARA includes 
specific requirements related to seven areas, including data center 
consolidation. \11\
---------------------------------------------------------------------------
    \10\ Pub. L. No. 113-291, div. A, title VIII, subtitle D, 128 Stat. 
3292, 3438-3450 (Dec. 19, 2014).
    \11\ FITARA also includes requirements for covered agencies to 
enhance the transparency and improve risk management of IT investments, 
enhance CIO authority, annually review IT investment portfolios, expand 
training and use of IT acquisition cadres, and compare their purchases 
of services and supplies to what is offered under the Federal strategic 
sourcing initiative that the General Services Administration is to 
develop.
---------------------------------------------------------------------------
    Under FITARA, VA and other covered agencies are required to provide 
OMB with a data center inventory, a strategy for consolidating and 
optimizing the data centers (to include planned cost savings), and 
quarterly updates on progress made. FITARA also requires OMB to develop 
a goal for how much is to be saved through this initiative, and provide 
annual reports on cost savings achieved.
    In addition, in August 2016, OMB released guidance intended to, 
among other things, define a framework for achieving the data center 
consolidation and optimization requirements of FITARA. \12\ The 
guidance includes requirements for covered agencies such as VA to:
---------------------------------------------------------------------------
    \12\ OMB, Data Center Optimization Initiative (DCOI), Memorandum M-
16-19 (Washington D.C.: Aug. 1, 2016).

    <bullet>  maintain complete inventories of all data center 
facilities owned, operated, or maintained by or on behalf of the 
agency;
    <bullet>  develop cost savings targets due to consolidation and 
optimization for fiscal years 2016 through 2018 and report any actual 
realized cost savings; and
    <bullet>  measure progress toward meeting optimization metrics on a 
quarterly basis.

    The guidance also directs each covered agency to develop a data 
center consolidation and optimization strategic plan that defines the 
agency's data center strategy for fiscal years 2016, 2017, and 2018. 
This strategy is to include, among other things, a statement from the 
agency CIO stating whether the agency has complied with all data center 
reporting requirements in FITARA. Further, the guidance indicates that 
OMB is to maintain a public dashboard that will display consolidation-
related costs savings and optimization performance information for the 
agencies.

VA Has Begun to Implement VistA Modernization Plans amid Concerns about 
    Its Long-term Approach, Metrics, and Duplication

    Although VA has proceeded with its program to modernize VistA 
(known as VistA Evolution), the department's long-term plan for meeting 
its electronic health record system needs beyond fiscal year 2018 is 
uncertain. The department's current VistA modernization approach is 
reflected in an interoperability plan and a roadmap describing 
functional capabilities to be deployed through fiscal year 2018. 
Specifically, these documents describe the department's approach for 
modernizing its existing electronic health record system through the 
VistA Evolution program, while helping to facilitate interoperability 
with DoD's system and the private sector. For example, the VA 
Interoperability Plan, issued in June 2014, describes activities 
intended to improve VistA's technical interoperability, \13\ such as 
standardizing the VistA software across the department to simplify 
sharing data.
---------------------------------------------------------------------------
    \13\ Technical interoperability refers to the ability of multiple 
systems to be able to transmit data back and forth.
---------------------------------------------------------------------------
    In addition, the VistA 4 Roadmap, which further describes VA's plan 
for modernizing the system, identifies four sets of functional 
capabilities that are expected to be incrementally deployed during 
fiscal years 2014 through 2018 to modernize the VistA system and 
enhance interoperability. According to the roadmap, the first set of 
capabilities was delivered by the end of September 2014 and included 
access to the Joint Legacy Viewer and a foundation for future 
functionality, such as an enhanced graphical user interface.
    Another interoperable capability that is expected to be 
incrementally delivered over the course of the VistA modernization 
program is the enterprise health management platform. \14\ The 
department has stated that this platform is expected to provide 
clinicians with a customizable view of a health record that can 
integrate data from VA, DoD, and third-party providers. Also, when 
fully deployed, VA expects the enterprise health management platform to 
replace the Joint Legacy Viewer.
---------------------------------------------------------------------------
    \14\ The enterprise health management platform is a graphical user 
interface that is intended to present patient information to support 
medical care to the veteran from a standardized set of information, 
regardless of where the veteran receives care. Clinical information 
captured at the point of care is made available to all authorized 
providers across the enterprise.
---------------------------------------------------------------------------
    However, an independent assessment of health IT at VA questioned 
whether the VistA Evolution program to modernize the electronic health 
record system can overcome a variety of risks and technical issues that 
have plagued prior VA initiatives of similar size and complexity. \15\ 
For example, the study raised questions regarding the lack of any clear 
advances made during the past decade and the increasing amount of time 
needed for VA to release new health IT capabilities. Given the concerns 
identified, the study recommended that VA assess the cost versus 
benefits of various alternatives for delivering the modernized 
capabilities, such as commercially available off-the-shelf electronic 
health record systems, open source systems, and the continued 
development of VistA.
---------------------------------------------------------------------------
    \15\ MITRE Corporation, Independent Assessment of the Health Care 
Delivery Systems and Management Processes of the Department of Veterans 
Affairs, Volume 1: Integrated Report (Washington, D.C.: Sept. 1, 2015). 
This assessment was conducted in response to a requirement in the 
Veterans Access, Choice, and Accountability Act of 2014, Pub. L. 
No.113-146, Sec.  201, 128 Stat. 1754, 1769 (Aug. 7, 2014).
---------------------------------------------------------------------------
    In speaking about this matter, VA's former Under Secretary for 
Health asserted that the department will follow through on its plans to 
complete the VistA Evolution program in fiscal year 2018. However, the 
former CIO also indicated that the department would reconsider how best 
to meet its electronic health record system needs beyond fiscal year 
2018. As such, VA's approach to addressing its electronic health record 
system needs remains uncertain.

VA, Together with DoD and the Interagency Program Office, Have Not 
    Developed Goals and Metrics for Assessing Interoperability

    Beyond modernizing VistA, VA has undertaken numerous initiatives 
with DoD that were intended to advance electronic health record 
interoperability between the two departments. Yet, a significant 
concern is that these departments have not identified outcome-oriented 
goals and metrics to clearly define what they aim to achieve from their 
interoperability efforts, and the value and benefits these efforts are 
expected to yield. As we have stressed in our prior work and guidance, 
\16\ assessing the performance of a program should include measuring 
its outcomes in terms of the results of products or services. In this 
case, such outcomes could include improvements in the quality of health 
care or clinician satisfaction. Establishing outcome-oriented goals and 
metrics is essential to determining whether a program is delivering 
value.
---------------------------------------------------------------------------
    \16\ GAO, Electronic Health Record Programs: Participation Has 
Increased, but Action Needed to Achieve Goals, Including Improved 
Quality of Care, GAO-14-207 (Washington, D.C.: Mar. 6, 2014); Designing 
Evaluations: 2012 Revision, GAO-12-208G (Washington, D.C.: Jan. 31, 
2012); Performance Measurement and Evaluation: Definitions and 
Relationships, GAO-11-646SP (Washington, D.C.: May 2, 2011); and 
Executive Guide: Effectively Implementing the Government Performance 
and Results Act, GAO/GGD-96-118 (Washington, D.C.: Jun. 1, 1996).
---------------------------------------------------------------------------
    The IPO is responsible for monitoring and reporting on VA's and 
DoD's progress in achieving interoperability and coordinating with the 
departments to ensure that these efforts enhance health care services. 
Toward this end, the office issued guidance that identified a variety 
of process-oriented metrics to be tracked, such as the percentage of 
health data domains that have been mapped to national standards. The 
guidance also identified metrics to be reported that relate to tracking 
the amounts of certain types of data being exchanged between the 
departments, using existing capabilities. This would include, for 
example, laboratory reports transferred from DoD to VA via the Federal 
Health Information Exchange and patient queries submitted by providers 
through the Bidirectional Health Information Exchange.
    Nevertheless, in our August 2015 report, we noted that the IPO had 
not specified outcome-oriented metrics and goals that could be used to 
gauge the impact of the interoperable health record capabilities on the 
departments' health care services. At that time, the acting director of 
the IPO stated that the office was working to identify metrics that 
would be more meaningful, such as metrics on the quality of a user's 
experience or on improvements in health outcomes. However, the office 
had not established a timeframe for completing the outcome-oriented 
metrics and incorporating them into the office's guidance.
    In the report, we stressed that using an effective outcome-based 
approach could provide the two departments with a more accurate picture 
of their progress toward achieving interoperability, and the value and 
benefits generated. Accordingly, we recommended that the departments, 
working with the IPO, establish a timeframe for identifying outcome-
oriented metrics; define related goals as a basis for determining the 
extent to which the departments' modernized electronic health record 
systems are achieving interoperability; and update IPO guidance 
accordingly.
    Both departments concurred with our recommendations. Further, since 
that time, VA has established a performance architecture program that 
has begun to define an approach for identifying outcome-oriented 
metrics focused on health outcomes in selected clinical areas, and it 
also has begun to establish baseline measurements. We intend to 
continue monitoring the departments' efforts to determine how these 
metrics define and measure the results achieved by interoperability 
between the departments.

VA's Plan to Modernize VistA Raises Concern about Duplication with 
    DoD's Electronic Health Record System Acquisition

    VA has moved forward with modernizing VistA despite concerns that 
doing so is potentially duplicative with DoD's acquisition of a 
commercially available electronic health record system. Specifically, 
VA took this course of action even though it has many health care 
business needs in common with DoD. For example, in May 2010, both 
departments issued a report on medical IT to congressional Committees 
that identified 10 areas-inpatient documentation, outpatient 
documentation, pharmacy, laboratory, order entry and management, 
scheduling, imaging and radiology, third-party billing, registration, 
and data sharing-in which the departments have common business needs. 
\17\ Further, the results of a 2008 consultant's study pointed out that 
over 97 percent of inpatient requirements for electronic health record 
systems are common to both departments. \18\
---------------------------------------------------------------------------
    \17\ Department of Defense and Department of Veterans Affairs Joint 
Executive Council and Health Executive Council, Report to Congress on 
Department of Defense and Department of Veterans Affairs Medical 
Information Technology, required by the explanatory statement 
accompanying the Department of Defense Appropriations Act, 2010 (Public 
Law 111-118).
    \18\ Booz Allen Hamilton, Report on the Analysis of Solutions for a 
Joint DoD-VA Inpatient EHR and Next Steps, Task Order W81XWH-07-F-0353: 
Joint DoD-VA Inpatient Electronic Health Record (EHR) Project Support, 
July 2008.
---------------------------------------------------------------------------
    We also issued several prior reports regarding the plans for 
separate systems, in which we noted that the two departments did not 
substantiate their claims that VA's VistA modernization, together with 
DoD's acquisition of a new system, would be achieved faster and at less 
cost than developing a single, joint electronic health record system. 
Moreover, we noted that the departments' plans to modernize their two 
separate systems were duplicative and stressed that their decisions to 
do so should be justified by comparing the costs and schedules of 
alternate approaches. \19\
---------------------------------------------------------------------------
    \19\ GAO, Electronic Health Records: VA and DoD Need to Support 
Cost and Schedule Claims, Develop Interoperability Plans, and Improve 
Collaboration, GAO-14-302 (Washington, D.C.: Feb. 27, 2014). See also 
GAO, 2014 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-14-343SP (Washington, D.C.: Apr. 8, 2014), and 2015 
Annual Report: Additional Opportunities to Reduce Fragmentation, 
Overlap, and Duplication and Achieve Other Financial Benefits, GAO-15-
404SP (Washington, D.C.: Apr. 14, 2015).
---------------------------------------------------------------------------
    We recommended that VA and DoD develop cost and schedule estimates 
that would include all elements of their approach (i.e., to modernize 
both departments' health information systems and establish 
interoperability between them) and compare them with estimates of the 
cost and schedule for developing a single, integrated system. If the 
planned approach for separate systems was projected to cost more or 
take longer, we recommended that the departments provide a rationale 
for pursuing such an approach.
    VA, as well as DoD, agreed with our recommendations and stated that 
an initial comparison had indicated that the approach involving 
separate systems would be more cost effective. However, as of January 
2017, the departments had not provided us with a comparison of the 
estimated costs of their current and previous approaches. Further, with 
respect to their assertions that separate systems could be achieved 
faster, both departments had developed schedules which indicated that 
their separate modernization efforts are not expected to be completed 
until after the 2017 planned completion date for the previous single-
system approach.

Scheduling System Challenges Contributed to Designation of VA Health 
    Care as High Risk

    In February 2015, we designated VA health care as a high-risk area. 
\20\ Among the five broad areas contributing to our determination was 
the department's IT challenges. \21\ Of particular concern was the 
failed modernization of a system to support the department's outpatient 
appointment scheduling.
---------------------------------------------------------------------------
    \20\ 20 GAO, High Risk Series: An Update, GAO-15-290 (Washington, 
D.C.: Feb. 11, 2015).
    \21\ The remaining four areas are ambiguous policies and 
inconsistent processes, inadequate oversight and accountability, 
inadequate training for VA staff, and unclear resource needs and 
allocation priorities.
---------------------------------------------------------------------------
    We have previously reported on the department's outpatient 
appointment scheduling system, which is about 30 years old. Among the 
problems that VA employees responsible for scheduling appointments have 
cited, are that the system's commands require the use of many 
keystrokes, and that it does not allow them to view multiple screens at 
once. Thus, schedulers must open and close multiple screens to check a 
provider's or a clinic's full availability when setting up a medical 
appointment, which is time-consuming and can lead to errors.
    In May 2010, we reported that, after spending an estimated $127 
million over 9 years on its outpatient scheduling system modernization 
project, VA had not implemented any of the planned system's 
capabilities and was essentially starting over by beginning a new 
initiative to build or purchase another scheduling system. \22\ We also 
noted that VA had not developed a project plan or schedule for the new 
initiative, stating that it intended to do so after determining whether 
to build or purchase the new system.
---------------------------------------------------------------------------
    \22\ GAO, Information Technology: Management Improvements Are 
Essential to VA's Second Effort to Replace Its Outpatient Scheduling 
System, GAO 10 579 (Washington, D.C.: May 27, 2010).
---------------------------------------------------------------------------
    We recommended that the department take six actions to improve key 
systems development and acquisition processes essential to the second 
outpatient scheduling system effort. The department generally concurred 
with our recommendations, but as of May 2016, had not addressed four of 
the six recommendations. Addressing our recommendations should better 
position VA to effectively modernize its outpatient scheduling system, 
and ultimately, improve the quality of care that veterans receive.

Efforts to Develop and Use the Veterans Benefits Management System Can 
    Be Improved

    In September 2015, we reported that VBA had made progress in 
developing and implementing VBMS, its system that is to be used for 
processing disability benefit claims. \23\ Specifically, it had 
deployed the initial version of the system to all of its regional 
offices as of June 2013. Further, after initial deployment, VBA 
continued developing and implementing additional system functionality 
and enhancements to support the electronic processing of disability 
compensation claims. As a result, 95 percent of records related to 
veterans' disability claims were electronic and resided in the system.
---------------------------------------------------------------------------
    \23\ GAO-15-582.
---------------------------------------------------------------------------
    Nevertheless, we found that VBMS was not able to fully support 
disability and pension claims, as well as appeals processing. While the 
Under Secretary for Benefits stated in March 2013 that the development 
of the system was expected to be completed in 2015, implementation of 
functionality to fully support electronic claims processing was delayed 
beyond 2015. In addition, VBA had not produced a plan that identified 
when the system would be completed. Accordingly, holding VBA management 
accountable for meeting a timeframe and demonstrating progress was 
difficult.
    Our report further noted that, even as VBA continued its efforts to 
complete the development and implementation of VBMS, three areas were 
in need of increased management attention.

    <bullet>  Cost estimating: The program office did not have a 
reliable estimate of the cost for completing the system. Without such 
an estimate, VBA management and the department's stakeholders had a 
limited view of the system's future resource needs, and the program 
risked not having sufficient funding to complete development and 
implementation of the system.
    <bullet>  System availability: Although VBA had improved its 
performance regarding system availability to users, it had not 
established system response time goals. Without such goals, users did 
not have an expectation of the system response times they could 
anticipate and management did not have an indication of how well the 
system performed relative to performance goals.
    <bullet>  System defects: While the program had actively managed 
system defects, a recent system release had included unresolved defects 
that impacted system performance and users' experiences. Continuing to 
deploy releases with large numbers of defects that reduced system 
functionality could have adversely affected users' ability to process 
disability claims in an efficient manner.

    We also noted in the report that VBA had not conducted a customer 
satisfaction survey that would allow the department to compile data on 
how users viewed the system's performance, and ultimately, to develop 
goals for improving the system. Our survey of VBMS users in 2014 found 
that a majority of them were satisfied with the system, but that 
decision review officers were considerably less satisfied. \24\
---------------------------------------------------------------------------
    \24\ Decision review officers examine claims decisions and perform 
an array of duties to resolve issues raised by veterans and their 
representatives.
---------------------------------------------------------------------------
    However, while the results of our survey provided VBA with data 
about users' satisfaction with the system, the absence of user 
satisfaction goals limited the utility of the survey results. 
Specifically, without having established goals to define user 
satisfaction, VBA did not have a basis for gauging the success of its 
efforts to promote satisfaction with the system, or for identifying 
areas where its efforts to complete development and implementation of 
the system might need attention.
    We recommended, among other actions, that the department develop a 
plan with a timeframe and a reliable cost estimate for completing VBMS, 
establish goals for system response time, assess user satisfaction, and 
establish satisfaction goals to promote improvement. While all of our 
recommendations currently remain open, the department indicated that it 
has begun taking steps to address them. For example, the department 
informed us of its plans to distribute its own survey to measure users' 
satisfaction with VBMS and to have the results of this survey analyzed 
by May 2017. In addition, the department has developed draft metrics 
for measuring the performance of the most commonly executed 
transactions within VBMS. Continued attention to these important areas 
can improve VA's efforts to effectively complete the development and 
implementation of VBMS and, in turn, more effectively support the 
department's processing of disability benefit claims.

VA's Progress on Data Center Consolidation Lags Behind Other Agencies

    We previously reported \25\ that VA was among the agencies that had 
collectively made progress on their data center closure efforts; \26\ 
nevertheless, it had fallen short of OMB's goal for agencies to close 
40 percent of all non-core centers by the end of fiscal year 2015. \27\
---------------------------------------------------------------------------
    \25\ GAO-16-323.
    \26\ The 24 agencies that FITARA requires to participate in the 
Federal data center consolidation initiative are the Departments of 
Agriculture, Commerce, Defense, Education, Energy, Health and Human 
Services, Homeland Security, Housing and Urban Development, the 
Interior, Justice, Labor, State, Transportation, the Treasury, and 
Veterans Affairs; the Environmental Protection Agency, General Services 
Administration, National Aeronautics and Space Administration, National 
Science Foundation, Nuclear Regulatory Commission, Office of Personnel 
Management, Small Business Administration, Social Security 
Administration, and U.S. Agency for International Development.
    \27\ Until August 2016, OMB categorized data centers as ``core'' 
(i.e., primary consolidation points for agency enterprise IT services) 
or ``non-core.''
---------------------------------------------------------------------------
    VA's progress toward closing data centers, and realizing the 
associated cost savings, lagged behind that of most other covered 
agencies. Specifically, we reported that VA's closure of 20 out of its 
total of 356 data centers gave the department a 6 percent closure rate 
through fiscal year 2015-ranking its closure rate 19th lowest out of 
the 24 agencies we studied. Further, when we took into account the data 
centers that the department planned to close through fiscal year 2019, 
VA's 8 percent closure rate ranked 21st lowest out of 24.
    With regard to cost savings and avoidance resulting from data 
center consolidation, our analysis of the department's data identified 
a total of $19.1 million in reported cost savings or avoidances from 
fiscal year 2011 though fiscal year 2015. This equated to only about 
0.7 percent of the total of approximately $2.8 billion that all 24 
agencies reported saving or avoiding during the same time period. Also, 
when we reported on this matter in March 2016, the department had not 
yet estimated any planned cost savings or avoidances from further data 
center consolidation during fiscal years 2017 through 2019.
    VA also lagged behind other agencies in making progress toward 
addressing data center optimization metrics established by OMB in 2014. 
\28\ These metrics, which applied only to core data centers, addressed 
several data center optimization areas, including cost per operating 
system, energy, facility, labor, storage, and virtualization. Further, 
OMB established a target value for nine metrics that agencies were 
expected to achieve by the end of fiscal year 2015. As we previously 
reported, 20 of 22 agencies with core data centers met at least one of 
OMB's optimization targets. VA was the only agency that reported 
meeting none of the nine targets. \29\
---------------------------------------------------------------------------
    \28\ OMB, Memorandum M-14-08.
    \29\ The Social Security Administration reported that it did not 
meet seven of OMB's nine data center optimization targets and that the 
remaining two targets were not applicable.
---------------------------------------------------------------------------
    Accordingly, we recommended that VA take action to improve its 
progress in the data center optimization areas that we reported as not 
meeting OMB's established targets. The department agreed with our 
recommendation and has since stated that approximately 70 data centers 
have been tentatively identified for potential consolidation by the end 
of fiscal year 2019. VA is anticipating that, upon completion, these 
consolidations will improve its performance on OMB's optimization 
metrics.

VA Plans to Retire Two Legacy Systems That Are Over 50 Years Old

    The Federal government spent more than 75 percent of the total 
amount budgeted for IT for fiscal year 2015 on operations and 
maintenance, including for the use of legacy IT systems that are 
becoming increasingly obsolete. VA is among a handful of departments 
with one or more archaic legacy systems. Specifically, our recent 
report on legacy systems used by Federal agencies identified 2 of the 
department's systems as being over 50 years old, and among the 10 
oldest investments and/or systems that were reported by 12 selected 
agencies. \30\
---------------------------------------------------------------------------
    \30\ GAO-16-468.

    <bullet>  Personnel and Accounting Integrated Data (PAID)-This 53-
year old system automates time and attendance for employees, 
timekeepers, payroll, and supervisors. It is written in Common Business 
Oriented Language (COBOL), a programming language developed in the late 
1950s and early 1960s, and runs on IBM mainframes. VA plans to replace 
this system with the Human Resources Information System Shared Service 
Center in 2017.
    <bullet>  Benefits Delivery Network (BDN)-This 51-year old system 
tracks claims filed by veterans for benefits, eligibility, and dates of 
death. It is a suite of COBOL mainframe applications. VA has general 
plans to roll the capabilities of BDN into another system, but has not 
established a firm date doing so.

    Ongoing use of antiquated systems such as PAID and BDN contributes 
to agencies spending a large, and increasing, proportion of their IT 
budgets on operations and maintenance of systems that have outlived 
their effectiveness and are consuming resources that outweigh their 
benefits. Accordingly, we recommended that VA identify and plan to 
modernize or replace its legacy systems. VA concurred with our 
recommendation and stated that it plans to retire PAID in 2017 and to 
retire BDN in 2018.
    In conclusion, effective IT management is critical to the 
performance of VA's mission. However, the department faces challenges 
in several key areas, including its approach to pursuing electronic 
health record interoperability with DoD. Specifically, VA's 
reconsideration of its approach to modernizing VistA raises uncertainty 
about how it intends to accomplish this important endeavor. VA has not 
yet defined the extent of interoperability it needs to provide the 
highest possible quality of care to its patients, as well as how and 
when the department intends to achieve this extent of interoperability 
with DoD. Further, VA has not justified the development and operation 
of an electronic health record system that is separate from DoD's 
system, even though the departments have common system needs.
    The department also faces challenges in modernizing its 
approximately 30-year old outpatient appointment scheduling system and 
improving its development and implementation of VBMS. Further, the 
department has not yet demonstrated expected progress toward 
consolidating and optimizing the performance of its data centers. In 
addition, VA's continued operation of two of the oldest legacy IT 
systems in the Federal government raises concern about the extent to 
which the department continues to spend funds on IT systems that are no 
longer effective or cost beneficial. While we recognize that VA has 
initiated steps to mitigate the IT management weaknesses we have 
identified, sustained management attention and organizational 
commitment will be essential to ensuring that the transformation is 
successful and that the weaknesses are fully addressed.
    Chairman Roe, Ranking Member Walz, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions that you may have.

GAO Contact and Staff Acknowledgments

    If you or your staffs have any questions about this testimony, 
please contact David A. Powner at (202) 512-9286 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="52223d253c3720361235333d7c353d247c">[email&#160;protected]</a> 
Contact points for our Offices of Congressional Relations and Public 
Affairs may be found on the last page of this testimony statement. GAO 
staff who made key contributions to this statement are Mark Bird 
(Assistant Director), Eric Trout (Analyst in Charge), Rebecca Eyler, 
Scott Pettis, Priscilla Smith, and Christy Tyson.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the Federal government for the American people. 
GAO examines the use of public funds; evaluates Federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (http://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e mail you a list of newly posted 
products, go to http://www.gao.gov and select ``E-mail Updates.''

Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

Connect with GAO

    Connect with GAO on Facebook, Flickr, Twitter, and YouTube.
    Subscribe to our RSS Feeds or E-mail Updates.
    Listen to our Podcasts and read The Watchblog.
    Visit GAO on the web at www.gao.gov.

To Report Fraud, Waste, and Abuse in Federal Programs

    Contact: Website: http://www.gao.gov/fraudnet/fraudnet.htm
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2c382b3f2e242f3e0a2d2b25642d253c">[email&#160;protected]</a>
    Automated answering system: (800) 424-5454 or (202) 512-7470

Congressional Relations

    Katherine Siggerud, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a49535d5d5f484f5e517a5d5b55145d554c">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="057c6a706b6266344562646a2b626a73">[email&#160;protected]</a>, (202) 512-4800
    U.S. Government Accountability Office, 441 G Street NW, Room 7149
    Washington, DC 20548

                                 <F-dash>
                       Statements For The Record

                      BLINDED VETERANS ASSOCIATION
Re: Statement of the Blinded Veterans Association on VA's Failure to 
    Address Compliance with Sections 504/508 of the Rehabilitation Act 
    In Conjunction with Its IT Infrastructure Modernization Program

    Dear Congressman Roe and members of the House Committee on Veterans 
Affairs:

    Thank you for granting the Blinded Veterans Association an 
opportunity to provide a statement for the record of your hearing on 
Assessing the VA IT landscape: Progress and Challenges on February 7, 
2017. In March 2016, we testified before this Committee that we were 
pleased by the progress that VA had made toward increasing the 
accessibility of its internal communications with VA employees who have 
visual disabilities, as well as external communications with visually 
impaired veterans. While we continue to stand by that previous 
statement, another year has passed and at the conclusion of that year, 
we find that there are significant issues that remain unaddressed. VA's 
responses to our inquiries about the status of their efforts to address 
these issues throughout the past year have been sporadic at best and 
largely uninformative. As VA undertakes its much-needed program to 
update and modernize its information technology infrastructure, we 
believe it is crucial that resolution of these issues must be 
considered an essential component of the program, because it is far 
less costly to build accessibility in at the ground level than it is to 
retrofit equipment, software, and databases after they have been put in 
place. As we will discuss below, we believe that failure to address 
these matters now could also have adverse financial ramifications for 
VA in the area of benefit claims. VA may be opening itself up to 
increased liability for payment of large retroactive benefit claims due 
to inadequate communications with veterans seeking eligibility for 
benefits.

    Two issues are of concern here:

    1.What is VA doing to ensure that it has the capacity to send 
correspondence and other important communications to veterans who have 
known visual disabilities in formats other than standard print that 
they can access independently? And

    2.What is the status of VA's effort to bring its websites, 
software, and hardware into compliance with the requirements of Section 
508 of the Rehabilitation Act?

    BVA was recently informed that A Power point from the Office of 
Business process integration (OPBI) dated January 29th to 31st, 2013 
states ``A recent Office of General Counsel (OGC) memo states VBA 
notifications are not in compliance with Section 504 of the 
Rehabilitation Act of 1973''. The rationale for the statement is that 
Section 504 of that Act requires that Federal agencies use accessible 
formats including but not limited to large print, braille, audio 
recording, electronic mail (e-mail), or Microsoft Word document, to 
communicate with beneficiaries and other users of services who have 
known disabilities that prevent them from reading standard print or PDF 
images. The OGC had determined that VA had not made a significant 
effort to develop its capability to provide correspondence or other 
important documents to veterans whom they knew had disabilities that 
prevented their reading the types of documents mentioned above. 
Further, since that time, VA has launched several initiatives to 
upgrade its databases, including those maintained by both VHA and VBA. 
We have been advised that the goal is to enhance the agencies' ability 
to gather additional information about the needs and other vital 
characteristics of veterans, so that services and benefits can be 
delivered in a more efficient and timely manner. However, there is no 
indication that these upgrades include data fields and other design 
features that would enable either VHA or VBA to gather and maintain 
information about a veteran's need for information in an alternate 
accessible format. Neither is there any indication that VA is seeking 
to build its capacity to provide materials to veterans in such formats 
if requested.
    In October 2009, the US District Court for the Northern District of 
California found the Social Security Administration (SSA) out of 
compliance with Sec. 504 of the Rehabilitation Act and Ordered that 
agency to begin allowing beneficiaries whom the agency knew were blind 
to request letters and other communications about benefits be sent to 
them in accessible formats. The agency was further ordered to make such 
upgrades to its equipment, programs, and services as were necessary to 
enable them to provide information in such formats. The court also said 
that once sufficient time had passed to allow the specified upgrades to 
be put in place, no social security benefits may be reduced or 
terminated to any individual shown in the SSA records to be blind or 
visually impaired (or whose authorized payee is shown to be blind or 
visually impaired) unless such person was first provided with the 
notice in an alternative format (either Braille or a navigable 
Microsoft Word document). The VA, like SSA, has a significant number of 
beneficiaries, and users of medical services, who are unable to read 
print or view images due to blindness, and, also like SSA, VA currently 
knows who many, if not most, of those individuals are. In addition to 
the legal basis for urging VA to act on this matter and follow SSA's 
lead, there are health and safety considerations that make it wise for 
VA to improve the accessibility of its communications. Veterans with 
visual impairments can suffer life-threatening injury as a result of 
their inability to read items like discharge instructions, or the 
warnings and lists of side effects that accompany prescriptions.
    Note also the language in Clarke v. Nicholson, 21 Vet.App. 130, 133 
(2007), if a regional office (RO) decides a claim but fails to notify 
the claimant of the decision, the claim remains open, legally, even if 
the RO clears the corresponding end product (EP). Under such 
circumstances, if VA denied entitlement to a benefit, failed to notify 
the claimant of the denial, and then granted entitlement to the same 
benefit years later, the claimant might be entitled to benefits 
retroactive to the initial date of claim, because the decision on the 
initial claim never became final.
    By failing to comply with 504 and 508 by insuring that information 
contained in correspondence and on VA websites is available in 
accessible formats, the VA may find it is liable to reopen thousands of 
cases, thus increasing the claims caseload and potentially requiring 
payment of large retroactive payments.
    Software that will enable VA personnel to convert material into 
accessible alternative formats is currently and readily available to 
the VA. It is also approved for use on the Department's system through 
the Technical Reference Manual(TRM) which regulates VA software. We 
believe it is imperative that implementation begin immediately.
    With regard to the VA's progress in addressing issues related to 
compliance with Sec. 508, BVA's specific outstanding concerns include 
lack of a timeline for the replacement of outdated Legacy Systems that 
are not compatible with adaptive software used by VA employees who are 
blind or with versions of software that allow them to work as 
productively as their peers using later versions of the systems, as 
well as kiosks and VBMS documents which are not accessible to blind 
veterans who rely on the VA for their medical care. We urge this 
Committee to hold the VA accountable for insuring that its information 
technologies and websites are designed to provide VA with the capacity 
to disseminate information in a manner that makes it accessible to both 
department employees who have visual impairments and need information 
in order to serve veterans, and to those among our Nation's veterans 
who have sacrificed their sight in service to our Nation.
    In order to demonstrate to you one example of the means that are 
currently available to accomplish the objectives discussed above, we 
have included a ``Voiceye'' bar code on the upper right-hand corner of 
this document. The Voiceye app is currently available for use on 
Windows, iOS and Android devices and can be downloaded from the various 
App Stores. It allows anyone to download the entire text of a document 
such as this onto a mobile device and review it anywhere. You will find 
this adaptive software for the blind, which makes documents accessible 
on mobile devices, is efficient for both blind and sighted individuals 
who want to scan and review a document on the go. We thought that 
members and staff of this Committee might find it useful to try it out 
on this document.
    Thank you very much for your concern and attention to these issues. 
We welcome the opportunity to work with you to address them. Please 
feel free to contact us if you have questions or would like additional 
information.

    Respectfully,

    Melanie Brunson
    Director of Government Relations

                                 <F-dash>
                       DISABLED AMERICAN VETERANS
    Mr. Chairman and Members of the Committee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
on the Department of Veterans Affairs (VA) Information Technology (IT) 
modernization projects, programs and needs. As you know, DAV is a non-
profit veterans service organization comprised of 1.3 million wartime 
service-disabled veterans that is dedicated to a single purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity. Virtually all of our members rely on the VA health care system 
for some or all of their health care, particularly for specialized 
treatment related to injuries and illnesses they incurred in service to 
the Nation.
                          INFORMATION SECURITY
    In order for veterans to access and utilize VA benefits and 
services, we are required to provide and sign over control of personal 
information to VA. But over the last decade, challenges in VA's 
information security practices have led to unintended loss of veterans 
information including exposure of Personally Identifiable Information 
(PII). Such losses erode our confidence in the Department, may cause 
some veterans to not engage or disengage and not receive critical 
services and support they need and have earned.
    Under the Federal Information Security Management Act, or FISMA, 
VA's Office of Inspector General (OIG) is required to assess VA's 
information security programs, procedures and practices against FISMA 
requirements, applicable National Institute for Standards and 
Technology guidelines for information security and risk management, and 
the annual reporting requirements from the Office of Management and 
Budget.
    In 2012, VA's Office of Information Technology (OIT) launched the 
Continuous Readiness in Information Security Program (CRISP), a three-
pronged approach towards information security, addressing annual 
reporting requirements and ongoing system security weaknesses, with the 
goal of transforming how the Department accesses, transfers, and 
protects information. It is encouraging to see OIG and OIT working 
collaboratively to identify weaknesses and foster continuous 
improvements in an environment with shifting priorities, changing 
requirements and creating new objectives.
    Meeting information security in such a complex environment among 
inter and intra-agencies takes time to mature and show evidence of 
their effectiveness and we appreciate Congress' supportive and vigilant 
oversight of the Department efforts in operationalizing its IT 
Enterprise Strategy to address persistent internal challenges.
                      MEANINGFUL INTEROPERABILITY
    Over the last decade, more veterans are coming to VA at 
significantly higher rates. To leverage technology and ensure timely 
and accurate delivery of veterans' benefits and services, VA IT systems 
must have efficient and meaningful interoperability.
    Seamless flow of electronic information from DoD, other government 
agencies and private organizations is vital to support efficient and 
accurate processing of disability, pension and other claims veterans 
file with Veterans Benefits Administration (VBA).
    Central to the VBA claims processing is the development of new 
organizational model and a new IT system, known as the Veterans 
Benefits Management System (VBMS). Deployed nationally in 2013, VBMS is 
a web-based electronic claims processing solution that serves as VBA's 
technology platform for quicker, more accurate processing. Improvement 
in interagency interoperability are needed and discussed in more detail 
in the VA Reform Efforts section below.
    For the Veterans Health Administration (VHA), the constant drive to 
achieve more cost-effective and high-quality care, meaningful 
interoperability to facilitate care coordination and effective patient 
and population health management must remain a high priority for VA and 
Congress.
    The development of the Joint Legacy Viewer as an interim solution 
is a significant and positive step in providing clinicians in the VHA 
and DoD real-time access to integrated medical information from VA and 
service treatment records from DoD. Such an enhancement greatly 
increases the clinician's ability to use best practices in clinical 
care and provide appropriate treatment.
    But a majority of VA's veteran patient population receives care 
from other Federal health care systems and the private sector. As this 
Committee is aware, VA is prohibited from sharing health information 
due to title 38, United States Code, Sec.  7332, except when required 
in emergencies, without written authorized consent from the patient. 
This requires legislative relief and DAV recommends Congressional 
action to amend this section while applying all protections under 
HIPAA.
    It should be noted however that addressing the legislative 
prohibition will help increase health information sharing and not 
necessarily interoperability. Gaps in clinical data standards and 
tailoring of the Veterans Health Information Systems and Technology 
Architecture (VistA) to meet local VA facility needs is delaying Joint 
Legacy Viewer (JLV) enhancements to allow other Federal and private 
health care providers to share information and be available to VA and 
DoD clinicians through JLV. These same challenges will need to be 
address when developing a long-term solution to replace JLV.
                            THE AGING VistA
    One of the greatest challenge for VHA is its aging Veterans Health 
Information Systems and Technology Architecture (VistA), a self-
developed public domain software. VistA has software modules for 
clinical care, financial and infrastructure functions. The Computerized 
Patient Record System (CPRS)-the primary computer application that VA 
clinicians' use when treating veteran patients-set the standard for 
electronic health record (EHR) systems in the United States and has 
been publicly praised by many independent observers.
    VistA is now aging not having received the attention needed to 
maintain its pioneering status and lags in some areas behind some 
commercial systems. To modernize VistA, VA introduced VistA Evolution 
in 2014 as a joint program between VA OIT and VHA to address several 
challenges in information security and risk management, business 
processes, clinical care, patient engagement, etc.
    However, VA and VHA have changed direction numerous times since the 
introduction of VistA Evolution and its reverberations are causing 
confusion within the Department. Today, as major reforms are being made 
in VBA and VHA, the agency has still not made a decision on whether it 
should move forward with VistA or follow the lead of the DoD and 
procure a commercial EHR system.
    As the new Secretary of Veterans Affairs assumes the office, we 
strongly urge this decision to be one of the first to be made. Whether 
it is to modernize or replace VistA, VA should ensure its strategic and 
operational plan should be the prominence of VistA (the database, 
systems and applications) were developed in close collaboration between 
clinicians, programmers, developers and engineers.
    The size and scope to modernize VHA's IT infrastructure requires 
the commitment from all levels of VA leadership and an improved 
enterprise-level management and governance. Not anymore, In addition, 
Congress must change how VA IT is currently budgeted by creating a 
separate VA health care IT account and funded through advanced 
appropriation.
                           VA REFORM EFFORTS
IT and Reforming the Claims and Appeals Process

    To have efficient claims and appeals processing within VA, records 
of compensation and pension examinations, those from the DoD, other 
government agencies and businesses, must flow seamlessly within the 
electronic environment.
    Heeding our calls to address outdated and ineffective 
infrastructure, leadership in the Veterans Benefits Administration 
(VBA) determined in 2010 that it would be necessary to completely and 
comprehensively transform and modernize its claims infrastructure and 
processes. The Secretary of Veterans Affairs established an ambitious 
goal of zero claims pending more than 125 days, and to complete all 
claims with 98 percent accuracy. These goals are still guiding 
principles for VBA today. VBA outlined a three-year strategy to achieve 
these goals.
    Central to the VBA claims processing is the development of new 
organizational model and a new IT system, known as the Veterans 
Benefits Management System (VBMS). Deployed nationally in 2013, VBMS is 
a web-based electronic claims processing solution that serves as VBA's 
technology platform for quicker, more accurate processing. To 
facilitate more efficient claims processing, VBMS collects and stores a 
veteran claimant's military service records, medical examinations and 
treatment records from VA, DoD, other Federal and private sector health 
care providers.
    VBMS also automates much of the adjudication process, improving 
workflow and the quality of disability. New technologies continue to be 
developed and deployed such as the Stakeholders Enterprise Portal 
(SEP), which allows stakeholders like DAV to perform our functions as 
representatives of veterans submitting claims for benefits and 
services. The National Work Queue (NWQ) is another piece of technology 
VBA recently deployed that is designed to increase its claims 
processing efficiency. The NWQ allows VBA to move its work among its 57 
VA regional offices to balance its overall workload. The NWQ is still 
in its infancy and Congress must perform oversight to ensure this 
technology is functioning as intended to ensure tax payer dollars are 
being used optimally.
    While incremental improvements in VBMS give us greater access and 
functionality to better serve veterans, their families and survivors, 
we agree with the Government Accountability Office's recommendation 
that VBA institute user and customer satisfaction goals for VBMS and 
conduct satisfaction surveys. However, we recommend these goals should 
apply to technology based on VBMS and other users and customers such as 
DAV and other veterans service organizations.
    VBMS functionality must be improved for claims and appeals 
processing. At present, it requires enhancements for the Board of 
Veterans' Appeals (Board) to process appeals more efficiently. Although 
a substantial repository for documents, VBMS has been identified to be 
cumbersome in properly evaluating evidence and adjudicating claims in 
both the claims and appeals processing environments.
    Presently, the Board is evaluating and implementing new 
technologies to replace its workload management system, the Veterans 
Appeals Control and Locator System (VACOLS). We believe any platform 
the Board finds best suited to its needs must facilitate seamless cross 
functionality for work requirements of VBA personnel, DAV, other VSOs 
and stakeholders involved in the claims and appeals process.

IT and Reforming the VA Health Care System

    Access to VA care remains a challenge as the agency is required to 
provide care to an aging veteran patient population suffering from more 
chronic conditions with more complex health care needs, address 
disparities in care for women veterans, and delivering on the 
expectations of younger veterans in need of services and supports. The 
Department is expected to provide needed care regardless of where the 
veteran resides and accomplish its health care mission with significant 
gaps in its health care workforce, limited authority to acquire and 
dispose of infrastructure to manage its footprint, and an evolving 
authority to purchase high quality care from community providers.
    Because veterans are unable to receive care from the VA in a timely 
manner, DAV and our partners in The Independent Budget (VFW and PVA) 
have proposed creating a high-performing VA health care network 
comprised of VA, other federal, and community providers to create 
seamless health care access for enrolled veterans.
    VHA must have robust state-of-the-art information technology and 
tools to integrate administrative processes (billing, claims payment, 
supply chain, infrastructure and workforce) and clinical processes 
(scheduling, interoperable electronic health record, and patient-
centered navigation tools) aligned with VBA and the National Cemetery 
Administration to support VA's organizational mission.

Patient Scheduling

    Veterans deserve high quality care and a fundamental aim for any 
health care system to deliver timely care. In 2008, DAV raised our 
concern about the validity of VA's data in measuring timely access to 
VA care and highlighted weaknesses in VA's scheduling software, 
ambiguous policies and inconsistent procedures. For example, VA's 
legacy Medical Appointment Program, first deployed in 1985, is a 
burdensome roll and scroll scheduling application. There have been a 
number of attempts to improve on this system since and current efforts 
include evaluating two concurrent pilot programs and an evaluation of a 
commercial off the shelf (COTS) solution, which has not yet been 
piloted. The COTS solution is intended to be a far more comprehensive 
solution and is expected to, among other things, include patient facing 
utility, standardize scheduling processes, data and business rules 
across VHA, and manage demand, supply and utilization of resources.
    The two concurrent pilot programs include VistA Scheduling 
Enhancement (VSE) and the Veteran Appointment Request (VAR) 
application. VSE is intended to reducing the burden on schedulers using 
a modern graphical user interface layered on top of the Medical 
Appointment Scheduling System. After testing at 10 locations, VA has 
announced it will make a decision this week to make it broadly 
available across the health care system.
    VAR is a mobile and online application for veterans to self-
schedule primary care appointments and request assistance in booking 
both primary care and mental health appointments at the VA facilities 
where they receive care. In addition to scheduling appointments, 
veterans can use VAR to track appointment details and the status of 
requests, send messages about requested appointments, receive 
notifications and cancel appointments.
    The COTS solution is intended to be a key component in VA's long-
term strategy to address the aging VistA by improving scheduling and 
provide workflow management and analytics capabilities. If VA decides 
to pursue VSE and VAR and forgo a more comprehensive COTS solution, it 
is imperative that VA address the gap it creates based on its long-term 
strategy to have a state-of-the art health information technology 
system.

Telehealth

    Telehealth minimizes barriers associated with geography by using 
technology to deliver timely care. It also alleviates some of the 
struggles in the VA health care system from increasing cost of care to 
the shortage of VA clinicians.
    To facilitate greater use of telemedicine, Congress must enact 
legislation to allow any VA clinician licensed to provide telemedicine 
to do so to any veteran enrolled in the VA health care system. Equally 
important, VA should address the current requirement to privilege and 
credential telehealth providers at each location the provider is to 
deliver telemedicine. Proposals include centrally administering 
credentialing and privileging or establish a national service agreement 
to grant providers national level privileges and credentials rather 
than requiring privileges and credentials for each VA facility.

Purchasing Care in the Community

    In fiscal year (FY) 2016, nearly a third of all medical appointment 
(25.5 million of 83.8 million appointments) was made with community 
providers-a 61 percent growth from FY2014. Yet when referring veterans 
to community care, VHA continues to experience challenges in processing 
claims and payments. Timely and accurate claims processing and payment 
is as important to community providers as it is to veterans (who are at 
risk of being billed and sent to collections when community providers 
are not paid).
    Despite the tremendous growth in claims processing workload, 
commensurate resources have not been dedicated to make needed 
improvements. VHA continues to have separate claims processing systems 
using VistA, Fee Basis Claims System (FBCS), and manual processes, all 
of which are antiquated compared to what is available commercially.
    In addition, claims for adult day care, bowel and bladder care, 
contract nursing homes, dental, dialysis, home health services, newborn 
care, and pharmacy, are not processed through FBCS but rather through 
VistA (dialysis is processed in a commercially acquired system).
    Several weaknesses exist in the end-to-end process to purchase care 
in the community. For example, clinical and administrative 
determinations to authorize veterans to receive care in the community 
are approved in VistA and manually entered in FBCS-where each VA 
Medical Center (VAMC) or Veterans Integrated Service Network (VISN) had 
its own version of FBCS. FBCS is then used to authorize, process and 
pay for community care. This lack of integration between VistA and FBCS 
creates increased risk for error and inefficiencies.
    Without a comprehensive IT solution, VHA still relies heavily on 
paper claims requiring manual handling. Electronic claims received from 
community providers remain low despite the Federal government mandate 
in Affordable Care Act (ACA) addressing the administrative burden faced 
by community providers in the claims and reimbursement process. In 
general, transaction standards that were adopted under HIPAA enable 
Electronic Data Interchange (EDI) through a uniform common transaction 
standard.
    The benefits of electronic claims interchange include reduced 
administrative overhead expenses, improved data accuracy, cleaner 
claims submission and reduced claims processing time. Because VHA is 
unable to deliver on the benefits of EDI, community providers remain 
hesitant to comply with the government mandate reinforcing the status 
quo within VHA.
    Another weakness is that costs for some purchased care 
authorizations are manually estimated and entered into FBCS, leading to 
inconsistencies estimating costs and thus affects the ability to 
accurately report available resources for the purposes of budgeting.
    In the ``choice'' program, gathering of information on 
registration, appointment and authorization provided to VHA by the 
third-party administrators (TPAs) is manually intensive, inefficient, 
and increased the risk of error. Moreover, VHA does not have the proper 
IT system in place to properly oversee the ``choice'' program currently 
relying on both manual and systems possibly due to the significant 
reorganization of CBO as required by the same law requiring the 
establishment of the ``choice'' program and the short timeline to 
implement the ``choice'' program.
    For well over a decade, we have spoken to numerous community 
providers who are dedicated to providing ill and injured veterans the 
best care they can provide. They consistently describe their dilemma 
with VHA in terms of the reimbursements they receive. They are able to 
continue caring for veterans if their reimbursement rate is low but 
received quickly. They are also able to continue to work if their 
reimbursement rate is adequate but slow. However, they are unable to 
continue to partner with VHA is their reimbursements are both slow and 
low-as is the general case today.
    If in the future, VA is to have a high performing integrated health 
care network with other Federal and community providers, it must show 
it values committed partners in which VHA IT plays a crucial role.

Closing

    Because of the breadth and depth of the three major IT challenges 
of information security, interoperability, and the aging VistA, as well 
as the other agency IT issues, it is clear that Congress and the VA 
must work together and engage all stakeholders transparently and 
collaboratively.
    Mr. Chairman, DAV appreciates the opportunity to provide this 
statement to the Committee on this important topic and urges Congress 
to legislatively address the IT needs of VA. I would be pleased to 
further discuss any of the issues raised by this statement, to provide 
the Committee additional views, or to respond to specific questions 
from you or other Members.

                                 <F-dash>
                          THE AMERICAN LEGION
    Chairman Roe, Ranking Member Walz, and distinguished members of the 
House Committee on Veterans' Affairs on behalf of National Commander 
Charles E. Schmidt and The American Legion; the country's largest 
patriotic wartime service organization for veterans, comprising over 2 
million members and serving every man and woman who has worn the 
uniform for this country; we thank you for the opportunity to testify 
regarding The American Legion's position on Assessing the VA IT 
Landscape: Progress and Challenges.
    ``Overhauling the health care system for Americans who answered the 
call of duty by serving in the military is a national priority. The 
country's largest integrated health care delivery system is responding 
to these challenges and aims to reestablish trust by expanding methods 
of providing care and emphasizing the concept of ``whole health'' and 
adopting a veteran-centric approach in everything we do. It will be 
necessary to reimagine the future of VHA health care delivery. 
Partnerships with Federal and community health care providers may 
result in better access and broader capabilities and will require a new 
infrastructure. The future requires the use of best practices in 
science and engineering to improve the quality, safety and consistency 
of veteran's experience, regardless of the site or type of care.'' 
David Shulkin, M.D. \1\
---------------------------------------------------------------------------
    \2\ New England Journal of Medicine http://www.nejm.org/doi/full/
10.1056/NEJMp1600307
---------------------------------------------------------------------------
    Department of Veterans Affairs (VA) Information Technology (IT) 
infrastructure has been an evolving technological necessity over the 
past 37 years, sometimes leading the industry, and sometimes trailing. 
The American Legion has been intrinsically involved with VA's IT 
transformation from the inception of Veterans Health Information and 
Technology Architecture (VistA) to the recent introduction of VistA-
e[volution] for medical records, as well as being a pioneer partner in 
the concept and integration of the fully electronic disability claims 
process.
    Leading the field in 1978, VA doctors developed an electronic 
solution to coordinate and catalogue patients healthcare long before 
their private sector colleagues, who were slow to follow, while some 
private physicians still refuse to automate today.
    As has been well documented, the Veterans Benefits Administration 
(VBA) suffered from horrific backlogs peaking in March 2013 at over 
611,000 claims. Today, that backlog has been reduced to approximately 
100,000 claims. VBA was mired in a mid-20th century work model lacking 
IT integration. Shuttling physical cases from one station to the other 
and from regional offices to medical centers adding to delays to 
adjudication decisions. Though not perfect, the implementation of 
Veterans Benefits Management System (VBMS) and stakeholder enterprise 
portal (SEP) has significantly reduced VA's reliance on hard copy 
cases. Today, cases can be viewed throughout the Nation collectively, 
greatly assisting advocates, VA, and ultimately, millions of our 
Nation's veterans.
    IT automation is expensive to implement and expensive to maintain, 
especially when maintaining legacy equipment. As in all digital space, 
IT infrastructure advances so quickly that most IT infrastructure is 
outdated by the time it is fully implemented, and VA's IT 
infrastructure is no different. Unfortunately, in this case it is 
simply the cost of doing business in a technologically advancing 
society. With this in mind, companies are turning to rented cloud based 
resources and Software as a Service (SAS) to mitigate costs. These 
services have a lower up-front investment and negate the need for 
hardware maintenance and software upgrades in many cases.
    Information Technology is inextricably intertwined into many of the 
services we take for granted, such as; telephone systems, appointment 
scheduling, procurement, building access and safety controls, and much 
more. Maintaining an up-to-date system is not a luxury, it is 
necessary, and The American Legion has found that VA's IT 
infrastructure is aged and failing our veterans.
    One of the primary complaints The American Legion receives 
regarding VA healthcare is scheduling issues. VA's inability to 
schedule the full complement of veterans' healthcare needs from one 
central location causes a multitude of delays and billing problems and 
puts veteran patients at risk when all of the members of the veteran's 
health team are unable to effectively collaborate online.
    In order for VA to safely and effectively serve veterans going 
forward they need a 21st century data system that incorporates;

    <bullet>  A single lifetime Electronic Health Record system (EHR),
    <bullet>  One Operation Management Platform consisting of one 
resource allocation, financial, supply chain, and human resources 
system that are integrated seamlessly with the EHR,
    <bullet>  A single Customer Relationship Management (CRM) system

    If proprietary, the system needs to be built using open source 
code, which will allow the program to remain sustainable and enable 
future competitive Application Programming Interface (API) Framework 
that will provide seamless interoperability with internal and external 
systems.
    Once this system is developed, metrics and analytics will be 
available to all levels of leadership from decentralized locations. 
Legacy viewer and 130 different versions of VistA simultaneously 
running across the national and international VA landscape that has 
been patched together is outdated and ineffective. A veteran should be 
able to walk into any VA medical Center (VAMC) anywhere in the country 
or abroad, and the first intake specialist to assist that veteran 
should be able to pull the patient's record up instantly. This is not 
possible today.
    Initiatives like MyHealtheVet, eBenefits, and the recently launched 
Vets.gov are all steps in the right direction, and all need to be tied 
into a single user interface system. The American Legion also supports 
extended use of public/private partnerships similar to the team 
detailed to VA from the private sector who have spent the past 18 
months building the Vets.gov portal. IT industry leaders such as 
Amazon, Google, Microsoft, and Cisco have already partnered with VA in 
a number of areas and appear willing to help ad cost, below market 
cost, or even donated services, and VA needs to have the flexibility to 
maximize these relationships.
    Finally, as we struggle to keep up with the multitude of programs 
and expenditures related to VA's IT program, The American Legion is 
outraged that one of VA's first experiences with integrating cloud 
services into the VA program was mismanaged and squandered more than $2 
million in taxpayer funds. VA does not have the freedom to learn as 
they go and needs to partner with or hire experts in cloud computing 
before they engage in cloud brokerage services. A few days ago the VA 
Office of Inspector General found \2\;
---------------------------------------------------------------------------
    \2\ VAOIG https://www.va.gov/oig/pubs/VAOIG-15-02189-336.pdf
---------------------------------------------------------------------------
    ``OI&T spent over $2 million on a cloud brokerage service contract 
that provided limited brokerage functionality and that VA's actions did 
not ensure adequate system performance or return on investment. We 
determined total project costs exceeded $5 million and the system's 
limited brokerage service functionality prevented it from being used in 
a production environment. This capability is essential for delivery of 
cloud services. The project manager did not ensure that formal testing 
and acceptance were conducted on project deliverables.''
    These deficiencies occurred because of a lack of executive 
oversight and ineffective project management. Without enforcement of 
oversight controls, project leadership cannot ensure it will receive 
the value of contract deliverables or demonstrate an adequate return on 
investment for the project.''
    In closing, The American Legion calls on Congress to ensure that VA 
is tying all of their IT programs together into a seamless program 
capable of processing claims, managing veterans' healthcare needs, 
integrating procurement needs so that VA leaders and congress can 
analyze annual expenditures versus healthcare consumption, integrating 
patient communications into their profiles, and ensuring seamless 
transition between the Department of Defense and VA.
    These are the needs of our 21st century fighting force, these are 
the needs of our returning veterans, these are the needs of our aging 
veterans, and these are the responsibilities of our Federal government 
who called on these heroes to defend the Constitution of the United 
States, against all enemies, foreign and domestic.
                               Conclusion
    The American Legion thanks this Committee for their diligence and 
commitment to our Nation's veterans as they struggle to receive the 
benefits they have earned for their service to the country. Questions 
concerning this testimony can be directed to Warren J. Goldstein, 
Assistant Director in The American Legion Legislative Division (202) 
861-2700.

                                 <F-dash>
                        VETERANS OF FOREIGN WARS
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliary, thank you for the 
opportunity to offer our thoughts on the progress and challenges we see 
in the Department of Veterans Affairs' Information Technology (VA IT) 
landscape.
    Historically, VA has faced significant challenges in developing and 
deploying state-of-the-art IT systems. Throughout the agency's history 
we have seen stops and starts that have brought about significant 
innovation, only to see these systems neglected and deteriorating over 
time.
    VA was the first health care system in the country to deploy a 
fully electronic and interoperable health care recordkeeping system; 
but as we have observed over the years, sustainment of this system has 
slowly led to its obsolescence. Now the agency is playing catch up.
    VA should be applauded for its efforts to make information more 
accessible to veterans by developing and deploying interactive portals 
through which veterans can manage their health care and benefits--
eBenefits, MyHealtheVet and vets.gov. However, these systems are 
imperfect and at times unstable, leading to frustration for those who 
seek to access them and utilize their features. Regardless, VA must be 
commended for moving out deliberately on a number of these innovations 
with the goal of improving the veteran experience.

Progress:

    Over the past few years, VA has moved out aggressively to reform an 
antiquated, paper-based disability claims process through the 
development of the Veterans Benefits Management System (VBMS), and new 
stakeholder tools for accredited veterans service organizations (VSOs) 
like the VFW, specifically the Stakeholder Enterprise Portal (SEP)--a 
direct upload portal for VA Central Scanning, and the Digits-2-Digits 
(D2D) electronic claims submission pilot.
    The VFW is generally impressed with the VBMS system. Since its 
deployment, our network of accredited representatives who assist 
veterans across the country have found the system to be generally user-
friendly and efficient in tracking veteran claimants. This is a 
significant step in the right direction as VA seeks to develop 21st 
century IT capabilities. However, VBMS continues to have critical flaws 
that must be addressed.
    VA's development of a direct upload portal through which accredited 
VSOs can submit claims documents and evidence directly to VA Central 
Scanning has the potential to be a game-changer for VA, if deployed 
properly. Since the rollout of SEP this fall, the VFW is generally 
happy with this system. It is intuitive. It is easy to monitor work 
flow. It is meticulous in keeping records of transactions. The VFW 
believes this capability was a longtime coming for VSOs and has the 
potential to significantly improve the efficiency of our service to 
veterans.
    Though eBenefits and MyHealtheVet have proven to be helpful 
resources for veterans, each system requires a different unique user 
name, an onerous password combination, and in-person verification for 
full access. The systems have also proven to be unstable with regular 
outages or disabled features. Veterans have consistently communicated 
these challenges to the VFW, and the VFW has in turn asked VA for a 
more intuitive, single-portal solution. Thankfully, VA listened and is 
incrementally deploying a quality single-portal solution via the 
vets.gov migration.
    The VFW has been privy to demonstrations of vets.gov and we have 
been repeatedly asked to stress test new features of the portal. To 
date, we are very satisfied with the product. VA should be commended 
for seeking out a competent third party, veteran-owned contractor--
ID.me --who developed a state-of-the-art identity verification system 
that makes full access to the portal an easy transaction. When our 
staff was asked to sign up for the portal on our own time, it took many 
of us a matter of only minutes to verify our identity and start working 
inside the portal, rather than the burdensome verification process that 
was required to reach the same level of authentication for VA's 
eBenefits and MyHealtheVet. We sincerely appreciate VA's collaboration 
on this initiative and we look forward to continuing to work together 
to deliver a high quality, full service benefits management portal to 
our veterans.
    VA has also made significant progress in leveraging health 
information exchanges to integrate private sector health care data with 
the VA electronic health care records of veterans who receive their 
care from VA and community care partners. Originally developed as a way 
to bridge the gap between VA and Department of Defense, the Virtual 
Lifetime Electronic Record (VLER) has also helped VA integrate the 
private sector and VA health care records of nearly 700,000 veterans. 
VLER eliminated the need for veterans to carry their records from one 
appointment to another, private providers faxing records to VA, and VA 
needing to scan paper records into its system. Doing so improves health 
care outcomes by reducing duplicate tests, improving coordination of 
care, and expediting the delivery of care for veterans.
    The VFW supports continuing the VLER program and calls on Congress 
to eliminate barriers to its success, such as an outdated law that 
limits VA's ability to share health care records with its community 
care partners. The outdated law requires VA to withhold the medical 
information of veterans who have been diagnosed with substance use 
disorder, human immunodeficiency virus, and sickle cell anemia, 
hindering VA's ability to transfer medical records with its community 
care partners. Congress must remove this statutory limitation.
    Finally, we must commend the Board of Veterans Appeals for 
pragmatically seeking out new ways to manage workflow. Though we have 
not seen finite deliverables to date, we support their efforts of 
leaning on IT professionals to stress test potential solutions before 
prematurely deploying an unworkable solution.

Challenges:

    Though the VFW applauds the initiative VA has taken in developing 
and deploying IT solutions, we face challenges in collaboration to 
develop the best possible resources to serve veterans. We have also 
heard a dangerous word around VA of late that has the VFW deeply 
concerned about the future viability and functionality of these 
products: sustainment.
    The VFW and our VSO partners consistently meet with VA to discuss 
our shared objectives in helping veterans navigate the complex VA 
benefits landscape. We have provided consistent feedback on the 
development and deployment of VA IT systems at all levels of the 
agency, to include meetings directly with the Office of Information 
Technology (OIT). However, some recent developments have left the VFW 
feeling neglected in helping to execute our part of VA's mission: 
meeting face-to-face with veterans to help them understand and navigate 
their benefits.
    As VA develops new IT systems, the agency has a bad habit of 
prioritizing internal business processes over the needs of veterans. 
Past VA Secretary Bob McDonald consistently articulated this as one of 
his chief concerns in transforming VA from a rules-based organization 
into a principle-based organization. The VFW agrees that this is a 
draconian task that has sadly not improved much over the past couple of 
years. Two examples of this are the recent decision by VA to enforce 
Personal Identity Verification (PIV) access rules for VA computer 
systems; and the deployment of the National Work Queue (NWQ) for 
veterans' claims within VBMS.
    First, the VFW continues to have significant problems in accessing 
VA computer systems because of the PIV card access rules set forth by 
VA. Last spring, VA recognized its significant challenges in issuing 
timely PIV identification cards and loading proper IT permissions all 
across the agency. VA also recognized the need to increase IT security, 
which is something the VFW understands. However, instead of fixing the 
PIV card issuance problems, VA OIT eliminated exemptions and now 
requires PIV card access to log onto VA IT systems.
    Make no mistake; the VFW understands that VA needs to ensure 
information security across its systems, but PIV enforcement and the 
simultaneous neglect to the PIV issuance processes has locked many VFW 
advocates out of the IT systems to which we need access to serve as 
responsible advocates for veterans. For example, one of our accredited 
representatives in Kansas City, Missouri still needs his IT permissions 
added to his PIV card to once again access VBMS. He has raised the 
issue locally and the VFW has raised the issue here in Washington. 
Instead of finding a solution, VA business lines point fingers at one 
another. Our representative has lacked the proper access to the systems 
he needs for more than eight months.
    What the VFW finds so disappointing about the PIV issue is that 
this is not new technology and this is not a new challenge for VA. As a 
matter of fact, the Federal government is already contemplating 
migrating away from this technology, as it is already more than a 
decade old. By a point of reference, this technology was first 
introduced to the Federal government through the military. Back in 
2006, while still serving in the U.S. Army Reserve, my military ID card 
was set to expire. At the time, I was a Department of the Navy civilian 
who required a PIV badge to access the Navy networks. During my lunch 
break, I was able to visit the ID office on Naval Station Newport where 
they took my photo, issued me a new U.S. Army ID card, and loaded it 
with the proper IT permissions to access the Navy network. I walked 
back to the office with my new, functional ID and continued my work 
unabated. Fast forward ten years, and VA still cannot figure this out. 
The VFW believes this is inexcusable.
    Next, as VA deployed VBMS, they also worked to develop NWQ to 
distribute work around the country. The VFW generally supports the 
concept of NWQ and we agree with VA that if implemented properly, it 
has the potential to ensure consistent, accurate and timely benefits to 
veterans. Since its inception, VA has asked for VSO input on NWQ. 
Sadly, very few of our needs have been addressed in its deployment. The 
VFW will present on this topic before the Disability Assistance & 
Memorial Affairs Subcommittee next week, but we will summarize our 
concerns here.
    For decades, accredited VSO representatives have been afforded 48 
hours to perform a final review of a proposed rating decision before it 
is promulgated and sent to the veteran. The VFW and our partner VSOs 
view this as a final quality assurance check to ensure VA and our 
accredited representatives have produced an accurate rating decision 
for our veterans. Unfortunately, the deployment of NWQ has prevented us 
from performing this final quality check.
    VA moves work around its regional offices very quickly via NWQ. The 
VFW understands this. It makes sense for VA to shuffle its business 
processes to offices that have the capacity to complete the work in a 
timely manner. However, when VA proposes a rating decision and posts it 
for review, they do not return the claim to the regional office where 
the claim originated --depriving the accredited VFW service officer 
familiar with the claim the opportunity to review it for accuracy 
before the claim is finalized. This makes no sense to the VFW, 
especially considering that our resources are customer-facing and 
aligned to serve the veterans in a particular community.
    This becomes a problem when VFW representatives are overwhelmed 
with excessive rating reviews in offices postured to handle only a 
small population of veterans. This is also a problem in states that 
invest finite state tax dollars in veteran claims assistance programs 
designed to serve veterans within their borders.
    Our argument to VA is that the processes they have sought to 
automate through NWQ are rules-based. This means any properly trained 
VA employee should be able to execute the business process to a high 
standard. This makes sense for VA. However, when VA assigns the rating 
review to a VSO in a random office, they do not take into account the 
customer-facing aspect of the VSO's job. VSOs and state governments 
align their resources to meet the needs of the community. Our job is 
customer service. Our clients share sensitive personal information with 
our advocates in confidence. It is our duty as veterans' advocates to 
ensure they receive the best possible service at the time and place of 
their choosing, not VA's choosing. Currently, the distribution of work 
via NWQ makes it nearly impossible for VSOs to do our job to a high 
standard.
    VA has offered workarounds to this problem, but workarounds are not 
solutions. The VFW believes that once VA is ready to propose a rating 
decision, they must return the claim to the Station of Origination 
(SOO) for the 48-hour review. The VFW not only believes this will allow 
VSOs to conduct a proper review, but this will also make it easier on 
VA. When VSOs catch errors in the rating review, the process is 
improved. Our accredited representatives learn how VA rates, VA learns 
about its deficiencies, and veterans fully understand their rating 
decisions. This is a mutually supportive process that avoids conflict 
and cuts down on appeals. For the VFW, we consistently find errors in 
10 percent of our rating reviews. If these are corrected, we help VA 
get it right the first time.
    When we have raised this issue with VA, they have responded with 
indignation. They feel that their workarounds should be sufficient and 
they claim that resources will not allow them to reroute the work. The 
VFW believes that VA already has the capability to reroute the work, 
but they are unwilling to do so. Since NWQ moves work from office to 
office so frequently, and then eventually returns the work to the SOO, 
the VFW believes that the infrastructure is in place to move the work 
to reflect the veteran's needs in the final review process.
    Again, as VA's partners, we believe NWQ can be a very good system 
to help veterans receive consistent, accurate, and timely benefits. We 
understand and support VA's initiative in resourcing work based on 
capacity in a digital environment. All we ask is that VA lets us help 
them deliver the best possible outcome to our veterans.
    With regard to sustainment of projects, conversations about the 
future viability of IT initiatives have become more pessimistic as the 
agency prepares for the sustainment phase. Simply put, VA has told the 
VSOs that there is no more money to continue developing many of its IT 
systems, particularly its claims management systems, and that 
sustainment means they will only have the ability to fix emergency 
glitches.
    The VFW believes VA has made significant progress in the 
development and deployment of many of its IT systems. However, we must 
warn against stagnation. In the past, we have seen Congress make 
significant investment in the development of IT resources, and we have 
seen VA move out aggressively to deploy these solutions. Unfortunately, 
once deployed, we usually see these solutions stagnate, meaning 
veterans, VSOs and VA employees are left to work with half solutions 
that quickly become obsolete.
    Proper IT development requires consistent investment in the 
development and evolution of a product. For example, I was an early 
adopter of Facebook back in 2004 when it was relegated to connecting 
with other students on college campuses in the Northeast. At the time, 
there were no photo albums, no news feeds, no external applications, 
and no public access. Since then, Facebook has continued to make 
investments internally and externally to build what has become one of 
the largest interconnected information networks in the world. The 
developers at Facebook never settled on what they believed to be a 
``good enough'' solution. The same can be said for Google, which 
evolved from a state-of-the-art search engine into a full-service 
digital platform for communication, information management, and 
commerce.
    By contrast, VA develops groundbreaking systems, like the 
aforementioned electronic health care record --Veterans Health 
Information Systems and Technology Architecture (VistA) ----
    but stagnation and VA's inability to keep pace with the private 
sector quickly renders such innovations obsolete. When it was first 
developed more than 30 years ago, VistA won awards for changing the 
medical records landscape and was praised for ushering in 21st century 
health care. VistA continues to serve as a critical tool for America's 
largest integrated health care system, but it is no longer the state-
of-the-art system it once was. Private sector electronic health care 
record systems have not only caught up to VistA, they have surpassed 
its ability to assist health care providers in caring for their 
patients.
    The VFW agrees with the Commission on Care that it is time for VA 
to adopt a commercial-off-the-shelf (COTS) solution to its aging 
electronic health care system. VA must be commended for its innovation 
and for continuing to modify VistA to meet today's needs, like 
developing a new user interface called the Enterprise Health Management 
Platform (eHMP) to reduce the time providers spend on the computer and 
maximize face-to-face time with their patients. To that end, VA has 
devoted time and resources to developing workarounds or patches to 
update VistA's aging infrastructure. We are glad VA has continued to 
turn to the VFW and our VSO partners when developing such workarounds 
and patches to make certain they meet the needs of veterans. However, 
the VFW believes VA would be better served by adopting a commercial 
electronic health care record infrastructure that can incorporate many 
of its new projects or completely eliminate the need for patches to 
VistA.
    VA can never build an IT system then declare victory and walk away. 
Our veterans need and deserve better, which is why we ask this 
Committee to continue supporting the investment and evolution of VA IT 
resources. We all know there are significant challenges in this 
mission, but we look forward to working with VA and this Committee in 
addressing them.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
